<html>
<title> - PREVENTING THE NEXT ATTACK: TSA'S ROLE IN KEEPING OUR TRANSPORTATION SYSTEM SECURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 PREVENTING THE NEXT ATTACK: TSA'S ROLE IN KEEPING OUR TRANSPORTATION 
                             SYSTEM SECURE

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2017

                               __________

                           Serial No. 115-37

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-470 PDF                WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                   
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
                Steven S. Giaier, Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                                Witness

Mr. David P. Pekoske, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                Appendix

Questions From Hon. John Katko for David P. Pekoske..............    39
Questions From Hon. Daniel M. Donovan, Jr. for David P. Pekoske..    40
Questions From Ranking Member Bennie G. Thompson for David P. 
  Pekoske........................................................    40
Questions From Hon. Val Butler Demings for David P. Pekoske......    46


 PREVENTING THE NEXT ATTACK: TSA'S ROLE IN KEEPING OUR TRANSPORTATION 
                             SYSTEM SECURE

                              ----------                              


                      Wednesday, November 8, 2017

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:20 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, Rogers, Barletta, Perry, 
Katko, Donovan, Gallagher, Higgins, Thompson, Langevin, 
Keating, Watson Coleman, Rice, Correa, Demings, and Barragan.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to hear from the 
administrator of the Transportation Security Administration 
David Pekoske on his plans for leading a work force of 
approximately 60,000 employees, the security operations at 
nearly 450 airports throughout the United States, the Federal 
Air Marshal Service, and shared security for highways, 
railroads, ports, mass transit systems, and pipelines.
    I now recognize myself for an opening statement. Today our 
committee is meeting to discuss TSA's role in keeping our 
transportation system secure. Before we begin, I would like to 
welcome and thank Administrator David Pekoske for joining us 
this morning to discuss a range of important topics relevant to 
America's aviation security.
    We, and I say, we the committee, have just been briefed in 
a Classified setting by the DHS inspector general and the 
administrator about specific vulnerabilities to our aviation 
security. But quite frankly, I think I speak for all of us when 
I say that we found that briefing disturbing.
    We need to do more to confront the growing threats aimed at 
the aviation sector, and I want to work with you so we can 
remedy this situation as soon as possible given the threat 
level.
    I am hopeful that TSA is successful with implementing the 
eight recommendations that should improve screening checkpoint 
operational effectiveness.
    While all Members on this committee share my concerns, I do 
want to remind the Members that the information shared and 
exchanged in that briefing must remain Classified.
    Today, we are 16 years past the horrendous 9/11 attacks 
that claimed the lives of almost 3,000 people. However, we are 
only 9 days past the latest terror attack to hit downtown New 
York. While the latest attack was carried out with a truck 
instead of an airplane, it was a reminder that the threats we 
face are still real.
    Before he was killed, ISIS leader Sheik Adnani called for 
lone-wolf attacks begging followers to kill the kuffar in his 
backyard by any means necessary. Today, international 
terrorists are still determined to spread fear by killing 
innocent people and destroying our way of life.
    I know many live on other continents. They are only one 
flight away. If we are going to be successful in keeping our 
homeland safe, we must make sure that TSA has the tools and 
resources it needs to carry out its mission. We understand, 
however, that this is no easy task.
    Even though there are approximately 60,000 TSA employees 
helping safeguard nearly 450 airports throughout the United 
States, our aviation sector remains the crown jewel of 
terrorist targets. America's enemies only have to be right 
once, while we have to be right 100 percent.
    With millions of people traveling into our country from all 
over the world, we must expeditiously implement policies and 
procedures that instill confidence and make our transportation 
system safe and secure.
    Fortunately, our committee has been dedicated to working 
together with TSA and other components within DHS to get the 
job done. Over the last several years, we have helped 
strengthen our aviation security with the legislation from this 
committee that was signed into law.
    This legislation included bills that enhanced security at 
last-point-of-departure airports into the United States and 
required emergency response and active-shooter exercises for 
TSA personnel on a regular basis.
    We also passed legislation that directs the TSA 
administrator to develop and update a strategic 5-year 
technology investment plan to report and provide to the private 
sector with a realistic roadmap of the agency's technology 
needs.
    These are certainly steps in the right direction, but as we 
saw from our previous briefing, we have a lot more to do. In 
2015 we also learned through leaked reports from the DHS 
inspector general that TSA's passenger screening record was, in 
their words, abysmal.
    This was very discouraging to this committee and very 
dangerous to the American people. Even though some changes have 
been made to correct this problem, we cannot be satisfied until 
we know it has been properly addressed.
    But the Government cannot solve this problem alone. Working 
with the private sector, we need to find ways to meet our 
security needs. These partnerships can produce new and 
innovative technologies that can advance our screening process, 
including the use of biometrics like fingerprints and facial 
recognition.
    This will make it hard to slip past screeners at the 
airport. New technology will also strengthen our ability to 
keep up with emerging threats.
    I think as we discussed previously, the CAT scan, the C.T. 
technology, is really going to be key here in protecting not 
only the traveling Americans, but Americans who could be the 
victim of an airplane being blown up in the skies.
    Taking down airplanes is a constant goal of the terrorists, 
but how they go about trying is always changing. In late July 
of this year, counterterrorism officials in Australia thwarted 
an attack and seized material that could have been used as an 
improvised explosive device to blow up an airplane.
    We are also seeing reports that terrorists are looking for 
ways to use laptops and other electronic devices as bombs that 
will be detonated on airlines. This is a serious threat, if not 
the most serious threat that we face from the radical 
Islamists.
    It is a threat that must be addressed, and I look forward 
to discussing with you, sir, the ways in which we can confront 
these issues head-on.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                            November 8, 2017
    Today, our committee is meeting to discuss TSA's role in keeping 
our transportation systems secure. Before we begin, I would like to 
welcome and thank Administrator David Pekoske for joining us this 
morning to discuss a range of important topics relevant to America's 
aviation security.
    We have just been briefed in a Classified setting by the DHS 
inspector general and Administrator Pekoske about specific 
vulnerabilities to our aviation security. Quite frankly, I found that 
briefing disturbing. We need to do more to confront the growing threats 
aimed at the aviation sector.
    I want to work with you so we can remedy the situation as soon as 
possible and I am hopeful TSA is successful with implementing the eight 
recommendations that should improve screening checkpoint operational 
effectiveness.
    While all Members on this committee share my concerns, I want to 
remind everyone that the information shared and exchanged in that 
briefing, must remain Classified.
    Today, we are 16 years past the horrendous 9/11 attacks that 
claimed the lives of almost 3,000 people. However, we are only 9 days 
past the latest terror attack to hit downtown New York. While the 
latest attack was carried out with a truck instead of an airplane, it 
was a reminder that the threats we face are real.
    Before he was killed, ISIS leader Sheik Adnani called for lone-wolf 
attacks, begging followers to kill by any means necessary.
    Today, international terrorists are still determined to spread fear 
by killing innocent people and destroying our way of life. And though 
many live on other continents, they are only one flight away.
    If we are going to be successful in keeping our homeland safe, we 
must make sure that TSA has the tools and resources it needs to carry 
out its mission. We understand however, that this is no easy task. Even 
though there are approximately 60,000 TSA employees helping safeguard 
nearly 450 airports throughout the United States, our aviation sector 
remains the crown jewel of terrorist targets.
    America's enemies only have to be right once, but we have to be 
right 100% of the time. With millions of people traveling into our 
country from all over the world, we must expeditiously implement 
policies and procedures that instill confidence and make our 
transportation system safe and secure. Fortunately, our committee has 
been very dedicated to working together, with TSA, and other components 
within DHS to get the job done.
    Over the last several years we have helped strengthen our aviation 
security with legislation from this committee and then signed into law. 
This legislation included bills that enhance security at last-point-of-
departure airports to the United States, and require emergency response 
and active-shooter exercises for TSA personnel on a regular basis.
    We also passed legislation that directs the TSA administrator to 
develop and update a strategic 5-year technology investment plan to 
report provide the private sector with a realistic roadmap of the 
agency's technology needs. These are certainly steps in the right 
direction but there is still much more that can be done. In 2015, we 
learned through leaked reports from the DHS inspector general that 
TSA's passenger screening record was abysmal. This was very 
discouraging. And even though some changes have been made to correct 
this problem, we cannot be satisfied until we know it's been properly 
addressed.
    But the Government cannot solve this problem alone. Working with 
the private sector will help us find ways to meet our security needs.
    These partnerships can produce new and innovative technologies that 
can advance our screening process, including the use of biometrics, 
like fingerprints and facial recognition. This will make it much harder 
to slip past screeners at the airport.
    New technology will also strengthen our ability to keep up with 
emerging threats.
    Taking down airplanes is a constant goal of terrorists, but how 
they go about trying is always changing. In late July of this year, 
counter-terrorism officials in Australia thwarted an attack and seized 
material that could have been used as an improvised explosive device 
(IED) to blow up a plane. We are also seeing reports that terrorists 
are looking for ways to use laptops and other electronic devices as 
bombs that will detonate on airlines.
    This is a serious threat that must be addressed and I look forward 
to discussing how we can confront these issues head-on.
    Again, I want to thank Administrator Pekoske for joining us this 
morning. We all look forward to working with you and the men and women 
of TSA who work very hard to keep their fellow Americans safe and our 
homeland secure.

    Chairman McCaul. Now with that, the Chair recognizes the 
Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. First, I 
want to begin my expressing condolences to the family and 
friends of those who have lost their lives in the heinous 
terrorist attack in New York City last week and thank the brave 
first responders who came to the aid of the injured. Our 
thoughts and prayers are with them all.
    I also want to express my condolences to the loved ones of 
those killed in Sunday's horrific shootings at the First 
Baptist Church of Sutherland Springs, Texas. Yet another 
American community has been devastated by a mass shooting, once 
again, at a place of worship.
    This week, I sent Chairman McCaul a letter asking to move 
my legislation, H.R. 1486, the Securing American Non-Profit 
Organizations Against Terrorism Act of 2017 as a stand-alone 
bill.
    H.R. 1486 establishes a program to authorize grants to non-
profit organizations including faith-based communities to 
assist them with acquisition or installation of security 
equipment and training related to preventing and protecting 
against attacks.
    I appreciate the Chairman's prior cooperation on this issue 
and hope H.R. 1486 will be considered at the next scheduled 
markup to expedite consideration of this important legislation 
in the Senate.
    I would be remiss if I did not follow up on a letter I sent 
the Chairman last week urging him to reschedule without further 
delay the abruptly postponed full committee hearing to examine 
the Federal Emergency Management Agency's disaster preparedness 
and response activities originally scheduled for November 1.
    Our fellow Americans in Puerto Rico and the U.S. Virgin 
Islands are counting on us to ensure the Federal Government 
provides desperately needed emergency relief to their 
devastated communities, as it has for those affected by recent 
hurricanes in Florida and Texas. I look forward to the 
committee holding this important hearing without further delay.
    Focusing on the issue at hand, I thank the Chairman for 
holding today's hearing and welcome Administrator Pekoske to 
the committee.
    Mr. Administrator, we appreciate the task you have to 
secure the Nation's transportation system. The fact that the 
Department considered banning devices larger than a smartphone 
from all U.S.-bound passenger planes earlier this year, 
reflects the seriousness of the threats to aviation today.
    Indeed, while the September 11 attacks were 16 years ago, 
new and more dangerous threats are constantly emerging. To 
address these threats, the Trump administration must invest in 
aviation security to strengthen TSA's effectiveness.
    Instead, the administration appears hell-bent on 
squandering billions on a boondoggle border wall that will do 
nothing to make the Nation more secure. Meanwhile, $1.28 
billion in aviation security fees are diverted, excuse me, from 
TSA operations annually, ostensibly to fund deficit reduction.
    That $1.28 billion that is being collected could go a long 
ways toward helping us secure our aviation vulnerabilities. At 
the same time, House Republicans are currently pushing a tax 
package that would add at least $1.5 trillion to the deficit 
while helping the wealthy and well-connected and leaving the 
middle class to pick up the tab. It simply defies common sense.
    In addition to providing the financial resources necessary 
for the agency to do its job effectively, TSA must address the 
work force challenges that have plagued it since its creation.
    TSA has consistently struggled with low morale across the 
work force, ranking 303 out of 305 Government agencies in 2016. 
Low morale has a nexus to the high turnover rate within the 
ranks of TSOs.
    TSOs represent 70 percent of the TSA work force, yet have 
been denied full collective bargaining rights, whistleblower 
protection, and opportunities to effectively raise issues and 
dispute to an independent third party such as the Merit Systems 
Protection Board.
    Additionally, TSOs are subject to a pay and performance 
system that does not track with the primary wage system for 
Federal workers. In order to move the work force forward and 
see necessary changes in vision, it is imperative for TSA 
front-line personnel to receive these critical protections.
    Democrats stand ready to work with you, Mr. Administrator, 
to ensure that TSA has the resources necessary to effectively 
train and maintain the work force it needs to carry out its 
vital mission.
    Again, I thank the Chairman for holding this hearing and 
the administrator for joining us today. I look forward to a 
productive hearing and close oversight of TSA going forward. I 
yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            November 8, 2017
    I want to begin by expressing my condolences to the family and 
friends of those who lost their lives in the heinous terrorist attack 
in New York City last week and thank the brave first responders who 
came to the aid of the injured. Our thoughts and prayers are with them 
all.
    I also want to express my condolences to the loved ones of those 
killed in Sunday's horrific shooting at the First Baptist Church of 
Sutherland Springs, Texas. Yet another American community has been 
devastated by a mass shooting, once again at a place of worship.
    This week I sent Chairman McCaul a letter asking to move my 
legislation, H.R. 1486, the Securing American Non-Profit Organizations 
Against Terrorism Act of 2017, as a stand-alone bill. H.R. 1486 
establishes a program to authorize grants to non-profit organizations, 
including faith-based communities, to assist them with acquisition or 
installation of security equipment and training related to preventing 
and protecting against attacks. I appreciate the Chairman's prior 
cooperation on this issue and hope H.R. 1486 will be considered at the 
next scheduled markup to expedite consideration of this important 
legislation in the Senate.
    I would be remiss if I did not follow up on a letter I sent the 
Chairman last week, urging him to reschedule without further delay the 
abruptly-postponed full committee hearing to examine the Federal 
Emergency Management Agency's disaster preparedness and response 
activities originally scheduled for November 1.
    I must say I found the Chairman's rationale for the postponement 
perplexing, as our witness, the Mayor of San Juan, Puerto Rico, was 
invited in full compliance with House and Committee Rules. The Majority 
had scheduled the hearing for a date of its choosing and had more than 
ample time to invite State and local witnesses, if they had wanted do 
so.
    Our fellow Americans in Puerto Rico and the U.S. Virgin Islands are 
counting on us to ensure the Federal Government provides desperately 
needed emergency relief to their devastated communities, as it has for 
those affected by recent hurricanes in Florida and Texas. I look 
forward to the committee holding this important hearing without further 
delay.
    Focusing on the issue at hand, I thank the Chairman for holding 
today's hearing and welcome Administrator Pekoske to the committee. 
Administrator Pekoske, we appreciate the task you have to secure the 
Nation's transportation system.
    The fact that the Department considered banning devices larger than 
a smart phone from all U.S.-bound passenger planes earlier this year 
reflects the seriousness of the threats to aviation today.
    Indeed, while the September 11 attacks were 16 years ago, new and 
more dangerous threats are constantly emerging. To address these 
threats, the Trump administration must invest in aviation security to 
strengthen TSA's effectiveness.
    Instead, the administration appears hell-bent on squandering 
billions on a boondoggle border wall that will do nothing to make the 
Nation more secure. Meanwhile, $1.28 BILLION in aviation security fees 
are diverted from TSA operations annually, ostensibly to fund ``deficit 
reduction.''
    At the same time, House Republicans are currently pushing a tax 
package that would add at least $1.5 TRILLION to the deficit, while 
helping the wealthy and well-connected and leaving the middle class to 
pick up the tab. It simply defies common sense.
    In addition to providing the financial resources necessary for the 
agency to do its job effectively, TSA must address the workforce 
challenges that have plagued it since its creation. TSA has 
consistently struggled with low morale across the workforce, ranking 
303 out of 305 Government agencies in 2016.
    Low morale has a nexus to the high turnover rate within the ranks 
of Transportation Security Officers (TSOs). TSOs represent 70% of the 
TSA workforce, yet have been denied full collective bargaining rights, 
whistleblower protections, and opportunities to effectively raise 
issues in dispute to an independent third party, such as the Merit 
Systems Protection Board.
    Additionally, TSOs are subject to a pay and performance system that 
does not track with the General Services (GS) wage system, the primary 
wage system for Federal workers. In order to move the workforce forward 
and see the necessary changes envisioned, it is imperative for TSA's 
front-line personnel to receive these critical protections.
    Democrats stand ready to work with Administrator Pekoske to ensure 
that TSA has the resources necessary to effectively train and maintain 
the workforce it needs to carry out its vital mission.

    Chairman McCaul. Thank the Ranking Member.
    Other Members are reminded opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
             Statement of Congresswoman Sheila Jackson Lee
                            November 8, 2017
    Chairman McCaul and Ranking Member Thompson, I thank you both for 
the opportunity for the full committee to hear from the Department of 
Homeland Security's new Transportation Security Administrator David P. 
Pekoske.
    As a senior Member of the Homeland Security Committee and former 
Chair of the Subcommittee on Transportation Security, I look forward to 
your testimony.
    Administrator Pekoske, I thank and commend you for your decades of 
service to the Nation.
    In 2010, you concluded 33 years of active military service as the 
26th Vice Commandant of the Coast Guard.
    Your immediate predecessor, Vice Admiral Neffenger, to serve as 
Transportation Security Administration (TSA) Administrator also served 
as Vice Commandant of the Coast Guard.
    This hearing is your first appearance before the committee since 
you were confirmed by the Senate.
    I view the work of the TSA as vital to our Nation's homeland 
security.
    On the morning of September 11, 2001, nearly 3,000 people were 
killed in a series of coordinated terrorist attacks in New York, 
Pennsylvania, and Virginia.
    The attacks resulted in the creation of the Transportation Security 
Administration, which was designed to prevent similar attacks in the 
future by removing the responsibility for transportation security from 
private entities.
    The Transportation Security Administration predated the creation of 
the Department of Homeland Security by several years.
    The Aviation and Transportation Security Act, passed by the 107th 
Congress and signed on November 19, 2001, established TSA.
    The agency mission is to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce.
    The Committee on Homeland Security is here to provide the needed 
policy guidance and funding to ensure that the TSA has what it needs to 
create and sustain the most effective transportation security as a 
high-performing counterterrorism organization.
    The work of the TSA is a front-line Department of Homeland Security 
and it is not easy--it can in fact be very dangerous.
    Like many of my colleagues, I recall the shooting incident at LAX 
that killed Gerardo Hernandez, who became the first TSA officer killed 
in the line of duty; and the machete attack at the Louis Armstrong New 
Orleans International Airport that resulted in injuries to Senior 
Transportation Security Officer Carol Richel.
    These incidents only highlight the difficult work that the men and 
women of the TSA must perform each day to keep our Nation's airports 
and flights safe.
                       2017 holiday travel season
    Recently, TSA announced new screening procedures at our Nation's 
airports regarding portable electronic devices that are larger than a 
cell phone.
    This change will undoubtedly impact millions of holiday travelers.
    We know that longer lines may occur as travelers who do not remove 
smaller electronic devices from carryon bags are sent for secondary 
screening.
    This opportunity will allow Members to ask you questions about your 
priorities as TSA administrator, as well as the manner in which you 
intend to address the issue of longer lines this holiday season, which 
may result due to changes in the security rules related to portable 
electronic devices.
    Administrator Pekoske you are leading an agency that is a critical 
link in our Nation's first line of defense against terrorism.
    As TSA administrator you will lead the primary effort to safeguard 
transportation throughout the Nation; protect ports of entry from those 
who would do our Nation harm; fight human trafficking; smuggling; and 
deter threats too varied for them all to be named.
    Each day, TSA processes an average of 1.7 million passengers at 
more than 450 airports across the Nation.
    In 2015, TSA screened 708 million passengers, which is more than 
1.9 million per day, resulting in more than 40.7 million more 
passengers than in 2014.
    TSA screened more than 2 million passengers in a single day 178 
times this year.
    In 2016, the Bush International and the William P. Hobby Airports 
are essential hubs for domestic and international air travel for 
Houston and the region:
  <bullet> Over 41 million passengers traveled through Bush 
        International Airport (IAH) and an additional 12 million 
        traveled through William P. Hobby (HOU).
                           morale at the tsa
    Allegations about mismanagement, wasteful procedures, retaliation 
against whistleblowers, low morale, and security gaps within the agency 
are causes for concern.
    TSA has consistently struggled with low morale across the 
workforce, ranking 303 out of 305 Government agencies in 2016.
    Low morale has a nexus to the high turnover rate within the ranks 
of Transportation Security Officers (TSOs).
    TSOs represent 70% of the TSA workforce, yet have been denied full 
collective bargaining rights, whistleblower protections, and 
opportunities to effectively raise issues in dispute to an independent 
third party, such as the Merit Systems Protection Board.
    Additionally, TSOs are subject to a pay and performance system that 
does not track with the General Services (GS) wage system, the primary 
wage system for Federal workers.
    In order to move the workforce forward and see the necessary 
changes envisioned, it is imperative for TSA's front-line personnel 
receive these critical protections.
    I look forward to the testimony of Administrator Pekoske.

    Chairman McCaul. On August 10, 2017, retired Vice Admiral 
David Pekoske was sworn in as a seventh TSA administrator after 
serving over 30 years in the United States Coast Guard.
    I want to thank you for you service, sir, and thank you for 
being here today to offer testimony. Your full statement will 
appear on the record. The Chair now recognizes Administrator 
Pekoske.

 STATEMENT OF DAVID P. PEKOSKE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pekoske. Good morning, Chairman McCaul, Ranking Member 
Thompson, and distinguished Members of the committee. I will 
begin my remarks by reflecting on the tragic events in New York 
City last weekend and Sutherland Springs, Texas this past 
Sunday and join both of you in offering my condolences to the 
families of the victims and our thoughts and prayers to all of 
those who were injured.
    Sir, thank you for inviting me here today to testify about 
transportation security for my first time in the role as 
administrator of the Transportation Security Administration.
    My colleagues and I at TSA appreciate the support the 
committee and its Members have provided to TSA in the passage 
of H.R. 2825, the Department of Homeland Security Authorization 
Act of 2017. We are grateful for the long-standing and 
constructive relationship that TSA enjoys with the committee. I 
look forward to building on this relationship during my tenure 
at the helm of TSA.
    I am honored by the opportunity to serve as the TSA 
administrator. Although I have only been on the job for a short 
time, I am impressed with the dedication and commitment of the 
men and women of TSA who provide protection to millions of 
people every single day, 365 days a year.
    TSA's mission to protect America's transportation systems 
is vital to our Nation's security. Aviation security has come a 
long way in 16 years, but we still face a determined adversary.
    The current threat environment is complex, diverse, and 
persistent. The threat to international aviation is high and 
multiple terrorist groups remain intent on attacking our 
surface transportation systems.
    We must adapt to these evolving challenges. Successfully 
meeting them rests on our own evolution both in TSA and 
globally. We must raise the security baseline by staying ahead 
of threats and quickly deploying effective countermeasures and 
working closely with our industry, public safety, and 
international partners.
    We must innovate so we can detect more complex threats and 
prohibited items ever more quickly, consistently, and 
efficiently. We must ensure that our work force receives the 
best training and leadership available and is closely connected 
to the TSA mission.
    To raise the baseline of international aviation security, 
TSA is working closely with partners across the globe. In June, 
TSA enhanced security measures for all commercial flights 
through the United States, and then in September initiated new 
security measures to address threats to cargo aircraft flying 
through the United States.
    We are grateful to our many partners in industry in the 
public sector, at home and overseas, for their support of these 
efforts over the past several months.
    TSA's aggressive pursuit of innovation includes exploring 
the use of computed tomography systems at airport checkpoints. 
These systems feature improved 3D imaging and enhanced 
detection capabilities.
    As important as these technological advancements are, our 
TSA security professionals are vital in accomplishing the 
mission from those that work behind the scenes and out of 
public view, to those at our airport security checkpoints, on-
board aircraft, and in our partnership with our surface 
transportation system owners and operators.
    To carry out our activities effectively, we need to invest 
in our work force, especially in key areas such as training and 
communications. I communicate to employees every chance I have 
the message that they are valued and that their work is 
critically important and that their No. 1 priority is security 
effectiveness.
    The recent terror attacks in New York City and in 
Sutherland Springs, Texas and overseas, are a compelling 
reminder of the need to remain vigilant in all modes of 
transportation. We need to continue building on our surface 
transportation security successes through stakeholder 
communications, coordination, and collaboration to protect 
these open-by-nature systems.
    I have received input from key stakeholders in all surface 
modes regarding the views on how TSA can help them improve 
security. Mr. Chairman, I value and appreciate the oversight 
provided by this committee, by the Department of Homeland 
Security inspector general, and by the General Accountability 
Office, and I pledge during my tenure as administrator to be 
open, transparent, and responsive to every Member of this 
committee.
    My key priority is improving job satisfaction that will 
equate to improve security performance and efficiency. I 
appreciate and will build upon the already outstanding 
relationships that TSA has with our airport, airline, and 
surface transportation system owners and operators with our 
public safety partners throughout the United States, 
internationally, and certainly with our international 
organizations and partners.
    Sir, this concludes my statement. I am honored to serve in 
this capacity, and I very much look forward to your questions 
today.
    [The prepared statement of Mr. Pekoske follows:]
                     Statement of David P. Pekoske
                            November 8, 2017
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. Thank you for inviting me here 
today in my new role as administrator of the Transportation Security 
Administration (TSA) to testify about transportation security.
    My colleagues at TSA and I appreciate the support of the committee 
and its Members in the passage of H.R. 2825, Department of Homeland 
Security Authorization Act of 2017, and we are grateful for the long-
standing and constructive relationship that TSA enjoys with the 
committee. I look forward to building on this relationship during my 
tenure at the helm of TSA.
    I am honored by the opportunity to serve as the TSA administrator. 
TSA's mission to protect America's transportation systems is vital to 
our Nation's security. Although I have only been on the job a short 
time, I am impressed with the dedication and commitment of the men and 
women of TSA, from those who work behind the scenes and out of public 
view, to those whose presence at our airport security checkpoints, on-
board aircraft, and in our surface transportation venues provide 
protection to millions of people every day.
    In September, we solemnly reflected on the 9/11 attacks. Aviation 
security operations have come a long way in 16 years, but we still face 
a determined adversary. The current threat environment is complex, 
diverse, and persistent; the threat to international aviation is high, 
and multiple terrorist groups remain intent on attacking civil 
aviation. Additionally, we must not ignore the real threat to surface 
transportation.
    These terrorist groups are using technology and social media to 
inspire, direct, and facilitate attacks. We also know they are doing 
their homework on our countermeasures. They are ``crowd-sourcing'' 
terrorism by publishing instructions to build bombs and devices 
designed to evade airport security or to derail trains; laying out road 
maps for soft target and public area attacks; and calling for their 
aspirants to hit targets of opportunity, whether at an airport, a 
passenger railroad station, or an inner city mass transit station.
    Certainly, we must adapt to evolving challenges. I believe this 
adaptation should include three key components: First, we need to 
continue to raise the global aviation security baseline around the 
world and surface transportation security domestically in collaboration 
with our industry and international partners; second, we need to 
continuously innovate; and third, we need to invest in our most 
valuable resource, our people.
    We continue to work with our partners across the global aviation 
community to collaborate, innovate, and implement new security 
practices in the face of evolving threats. To raise the baseline of 
international aviation security, TSA issued a Security Directive and 
Emergency Amendment in June to enhance security measures for all 
commercial flights to the United States. These measures--some of which 
are noticeable to passengers and some of which are not--include 
enhanced screening of passengers and electronic devices, and heightened 
security standards for all direct flights to the United States from 
overseas airports.
    All of these measures are necessary, given the gravity of current 
threats. TSA continues to work closely with U.S. aircraft operators, 
foreign air carriers, as well as host governments as they implement 
these measures. Also, in September we initiated new measures to address 
specific threats to cargo aircraft inbound to the United States. These 
measures require certain carriers to provide additional data to allow 
TSA, in partnership with U.S. Customs and Border Protection, to better 
assess the risk of shipments prior to loading. We continue to review 
ways to address threats and raise the baseline of cargo security 
screening overseas.
    Our industry and Government partners know the importance of 
adapting and innovating to stay ahead of our adversaries and have been 
critical in the effort to raise the global aviation security baseline. 
Additionally, I would be remiss if I did not thank the airports and 
airlines for their support during the summer travel season. This summer 
was an incredibly busy one for TSA. In fact, it was our busiest summer 
on record. Between the Memorial Day and Labor Day weekends, we screened 
more than 239 million passengers; a 4 percent increase from the 230 
million screened during the same period last year. This would not have 
been possible without the excellent partnerships we have developed with 
airports and airlines.
    TSA continues to engage with our domestic and international 
stakeholders to share best practices and align security with evolving 
and emerging threats. We work with industry operators through the 
Intermodal Security Training and Exercise Program to exercise their 
security and response plans to prevent and respond to active-shooter 
events or improvised explosive devices, similar to the one recently 
planted at the airport in Asheville, North Carolina. TSA has also been 
working with our partners in efforts to increase public area security. 
Events such as the terror attacks in Brussels and Istanbul, and the 
January 2017 lone-shooter rampage at Fort Lauderdale Airport, highlight 
the need for vigilance in the public areas of our Nation's airports, as 
well as surface transportation venues. It is critical that we learn the 
lessons of these attacks and use that knowledge to improve security.
    To that end, TSA and the Department of Homeland Security (DHS) 
National Protection and Programs Directorate launched a series of 
Public Area Security Summits last fall, collaboratively engaging with 
industry, Government, academia, and public officials to establish 
general principles for success in enhancing public area security. We 
have had four of these summits so far, with another scheduled for 
February 2018.
    International organizations also play a vital role in advancing 
TSA's mission to strengthen transportation security around the globe. 
For example, the United States is a member state of the International 
Civil Aviation Organization (ICAO), an arm of the United Nations that 
works with 190 other member states to set safety and security standards 
for international air travel, among other things. I recently spoke at 
ICAO's annual Aviation Security Symposium, encouraging members to join 
us in embracing innovation and raising the baseline of global aviation 
security. This message was echoed throughout the symposium. I will 
reiterate this message next week at the International Air Transport 
Association's (IATA) AvSec World Conference in Abu Dhabi.
    Another key element in raising the global aviation security 
baseline is investing in and leveraging new and emerging technologies 
for screening purposes. Acting Secretary Duke and I will work with this 
committee to identify and secure the necessary resources to pursue the 
most promising technologies. As just one example, TSA is exploring the 
use of 3D-imaging Computed Tomography systems to meet emerging and 
evolving threats at airport checkpoints. These systems offer a more 
enhanced imaging platform over legacy AT X-ray systems and are a proven 
technology that has been used for screening checked baggage. I believe 
that Computed Tomography will enhance carry-on screening for the 
current threats and improve overall checkpoint security effectiveness 
and efficiency.
    Identity verification and vetting are central underpinnings of the 
passenger security process. To address this capability need, we are 
actively working multiple paths to evaluate technology for potential 
future deployment. We have started testing credential authentication 
technologies at a number of airports. We have also assessed biometric 
fingerprint reading technology through the Innovation Task Force (ITF). 
Recently, we collaborated with the U.S. Customs and Border Protection 
on their biometrics pilot for identity verification of travelers 
exiting the country. Supporting this pilot is important for ensuring 
joint requirements across the Department. The intent of these efforts 
is to move TSA forward in the ability to verify passengers' identity, 
ticketing, and vetting status.
    To further improve the passenger security process, we are working 
to enhance our on-person screening to include advanced imaging 
technology. This should increase detection of threats, lower false 
alarm rates, and increase passenger throughput. Other technologies with 
promise are mobile hand-held solutions that quickly and easily identify 
explosives.
    We will continue to work with public and private partners to 
provide a platform for Government, industry, and stakeholders to gather 
requirements for new and innovative approaches to transportation 
security and accelerate the development and deployment of new 
technologies such as the ones I just described. During the requirements 
definition process, TSA leverages the robust DHS Joint Requirements 
Council framework and partners with DHS Science and Technology to 
develop and leverage cross-component solutions. Additionally, through 
TSA's ITF, we are seeking to improve collaboration with our partners 
through two-way knowledge exchanges and co-creation of security 
technologies. ITF actively seeks new partners and provides industry an 
opportunity to demonstrate their solutions in the field, capture 
operational data, and refine solutions against threats to 
transportation systems.
    TSA will continue to partner with industry to make improvements to 
our operations. We have received strong support from our airport and 
airline partners in our continued efforts to address increased 
passenger volumes. These partners provide volume projections to inform 
resourcing, promote the TSA PreCheck expedited screening program, and 
remind passengers to arrive early. Our industry partners also 
participate on daily calls with TSA to ensure clear, timely 
communication regarding daily screening operations. All of this work 
with industry partners is critical to ensuring that our screening 
technologies, processes, and systems continue to thrive and adapt.
    As important as these technological advances are, the TSA security 
professional at the checkpoint is vital to accomplishing TSA's mission. 
Since my arrival at TSA, I made it a priority to visit many airports 
and engage in direct conversations with front-line TSA employees. After 
hurricanes Harvey, Irma, and Maria, I traveled to Houston, St. Thomas, 
San Juan, Miami, Ft. Lauderdale, and Orlando to help our TSA colleagues 
get back on their feet and to ensure they received all the help we 
could offer. I listened to them and learned about TSA's operations and 
the challenges they face doing their jobs. I am consistently impressed 
and inspired by the dedication and commitment that they display, and I 
quickly realized just how passionate TSA employees are about our 
mission. This passion is reflected in the 885 TSA employees who 
deployed to support hurricane relief efforts through the DHS Surge 
Capacity Force, and I am immensely grateful to them. They represent the 
very best of TSA. I also appreciate the assistance of deployed 
Officers, the TSA Critical Incident Management Group, field leadership, 
and our airport and airline partners to reconstitute operations at 
affected airports.
    Our workforce carries out a difficult and demanding mission every 
day. TSA employees vet a daily average of 2.3 million air passengers 
against the Terrorist Screening Database before they arrive at airports 
for screening, and routinely prevent known or suspected terrorists from 
boarding aircraft. Last year alone, our Transportation Security 
Officers (TSOs) screened more than 760 million passengers and more than 
2 billion carry-ons and checked bags at approximately 440 airports 
Nation-wide. They prevented countless dangerous prohibited items from 
being carried onto planes, including over 3,000 firearms. In addition, 
TSA's Federal Air Marshals deployed on more than 250,000 domestic and 
international flights last year. Over 1,000 canine teams patrolled more 
than 100 aviation, mass transit, and maritime transportation locations 
across the Nation. Visible Intermodal Prevention and Response (VIPR) 
teams augmented transportation security Nation-wide, and recently, a 
number of VIPR teams contributed significantly to hurricane relief in 
Texas, Florida, and Puerto Rico. Last year, TSA's international 
inspectors completed more than 1,880 aircraft operator inspections and 
135 foreign airport assessments to ensure compliance with international 
standards and TSA security requirements.
    To carry out our activities effectively, we need to invest in our 
workforce, especially in key areas such as training and communication, 
to take TSA to the next level as an organization. We all benefit from 
an engaged workforce that feels connected to the mission and direction 
of the organization. I am committed to communicating directly with our 
employees and making sure they know they are valued and that their work 
is critically important.
    In support of our managers, we are leveraging Acting Secretary 
Duke's launch of a ``Year of Leadership.'' This is an initiative to 
reinforce DHS's culture of leadership excellence that allows 
supervisors and managers to receive the training and education that 
effective leadership requires.
    In 2012, TSA established the TSA Academy at the Federal Law 
Enforcement Training Center's Glynco campus, to increase the rigor and 
professionalism of the training that TSA employees receive. Although 
the Academy initially focused on training supervisory screening 
personnel, in January 2016, it began new-hire training for all TSOs. 
The TSA Academy has been a powerful tool for fostering a consistent 
training environment and helping to spread best practices and process 
innovations across TSA. The TSA Academy has already demonstrated clear 
value to TSA in terms of morale and aviation security effectiveness, 
and I am dedicated to the use of the Academy during my tenure and 
emphasizing the need to develop TSA leaders at all levels, harnessing 
the ``Year of Leadership'' effort as a catalyst.
    I believe that successfully meeting the ever-changing threat to 
aviation rests on our own evolution, both in TSA and in the global 
aviation sector. We must raise the security baseline by staying abreast 
of threats and quickly implementing effective countermeasures. We must 
innovate so we can detect more complex threats and prohibited items 
ever more quickly, consistently, and efficiently. We must ensure that 
our workforce receives the best training available and is as connected 
to the TSA enterprise as it is to its mission.
    I would like to take the opportunity to touch on the security of 
our Nation's surface transportation. Recent overseas terror attacks, 
including the Brussels subway attack and increasing vehicle-ramming 
incidents, provide a compelling reminder of the need to remain 
vigilant. While there is no specific, credible terrorist threat to U.S. 
surface transportation systems, the recent incidents in Europe 
underscore the need to continue to build upon our surface 
transportation security successes through stakeholder communication, 
coordination, and collaboration to protect these ``open-by-nature'' 
systems. To better understand the unique nature of these systems, I 
will engage with key industry stakeholders on an on-going basis. I 
recently met with pipeline industry leaders at the Pipeline 
International Security Forum in Buffalo, NY. I also toured and received 
security briefings from New York Metropolitan Transit Authority, New 
Jersey Transit, and Amtrak, which constitute some of the heaviest-
travelled systems in the country. I have also invited key stakeholders 
from all the surface modes to meet me at TSA and give me their views on 
how TSA can help them improve security.
    In closing, I believe a reinvigorated strategy is an essential 
foundation for success in our mission, and I have engaged my executive 
staff, with their years of experience, to reexamine and, if 
appropriate, to re-envision TSA's strategy. I have also recently 
engaged many private-sector industry partners to improve strategic 
partnerships and promote effective collaboration, and I look forward to 
on-going engagement with Members of this committee as we develop our 
strategic path forward for TSA.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you today. I 
am honored to serve in this capacity and I look forward to your 
questions.

    Chairman McCaul. Thank you. I appreciate that testimony. I 
go back to Ramzi Yousef, the 1993 Trade Center bomber Bojinka 
plot to blow up 12 airlines simultaneously. He escapes. Talked 
to his uncle. He basically plotted the 9/11 attacks.
    They have still not stopped. They are relentless in 
bringing down an airline. Even though they have been 
demoralized in Iraq and Syria to a large extent, and they have 
called for attacks by vehicles and knives and by whatever means 
necessary, Khalid Sheikh Mohammed's dream is still alive and 
well, unfortunately. It has gone from AQAP to ISIS.
    We have had our threat briefings and we know that they are 
still trying to bring down airlines through turning a laptop 
into an explosive device. We just had a briefing from the 
inspector general that I am not allowed to go in into detail, 
but he identified vulnerabilities in covert testing, 
vulnerabilities I think every Member at the briefing found 
disturbing.
    I believe there are things we can start doing today and not 
waiting. I don't think the American people can afford to wait 
for the safety of Americans. You and I talked about computed 
tomography, or C.T.. I have seen this technology.
    It goes from two-dimensional to three-dimensional. You can 
rotate it, and it also highlights and identifies contraband and 
explosive devices. We have this as a pilot program in only two 
airports.
    My question to you is how soon can this technology be 
deployed to all airports in the United States and also 
importantly the 10 last-point-of-departure airports identified 
as the highest threat to airports?
    Mr. Pekoske. Yes, sir. Computed tomography X-ray systems 
are a significant enhancement over what TSA currently uses at 
the checkpoints.
    You are correct in that we are prototyping two systems in 
the United States right now. Because it is a system that we are 
prototyping it is the conveyor belt that brings the carry-on 
bags to the machine, and the machine process itself and plus 
the interface with our transportation security officers.
    Sir, hypothetically we could deploy that technology 
throughout the system now because the technology exists. But 
what would happen as a result of that would be an improvement 
in the operator's ability to see images.
    Because as you mentioned, it is 3-D and it has a lot more 
fidelity for the operator. So I think the operator's success in 
identifying substances to look for for further inspection would 
be greatly improved.
    However, we aren't at the point yet where we can get the 
throughput through the computer tomography machines that we 
currently have through the existing machines. But over the 
course of the next several months we will be relatively close 
to that.
    So, you know, the technology does exist, it is being tested 
to a degree in Europe. It could be deployed really because it, 
you know, those machines are already being made.
    I would also add that this technology, computer tomography, 
is already in place in our checked bag systems. So----
    Chairman McCaul. I think that is what is a little bit 
confusing to us is it is already being used for checked bags.
    Mr. Pekoske. Right.
    Chairman McCaul. It is being used in two airports. I 
understand the algorithm would have to be updated at some point 
in time and the software associated with that.
    But it seems to me, given the high threat level that we are 
in right now with aviation, and that is our crown jewel, why 
can't we move as quickly as possible to deploy C.T. technology 
to all airports in the United States and those 10 last-point-
of-departure airports and then upgrade the software when that 
becomes available?
    Mr. Pekoske. Yes, sir, we could do that. The reason C.T. 
technology is in the checked bag area and not in the 
checkpoints just yet is because it has only been recently that 
we have been able to get the weight and the size of those 
machines down to the point where they could fit in a 
checkpoint.
    But now we have those two prototypes in Phoenix and Boston. 
We know that that capability for sizing exists. You are 
correct, sir, you know, we do need to do some work on the 
algorithms which would increase the range of the substances the 
machines are able to detect and also lower the weights to be 
able to detect that as well.
    That algorithm development can occur after the machines are 
deployed. Right now our plan is to do the algorithm development 
first and then deployment of the machine second.
    Chairman McCaul. Well, why can't we do it the other way 
around? Deploy the machines and update the algorithm later?
    Mr. Pekoske. You could do that, sir. The only challenge to 
that would be the reduced throughput through the machines. The 
integration with the conveyor belt that brings the carry-on 
bags and the bins to the machine.
    Chairman McCaul. Well, I look forward to working very 
closely with you. I see this as perhaps the biggest threat that 
we face through the radical Islamists. When you talk about 
large-scale attacks. So I look forward to working with you to 
see how rapidly we can deploy this new technology.
    In addition, working with the appropriators to make that 
the monies are available and reprogrammed as well to get this 
technology out to these airports and also these last-point-of-
departure airports that Members and I have gone to on many 
occasions. Quite frankly, the level of security is a bit 
frightening at some of those airports in the high-threat areas 
as well.
    So I know--welcome to the job. I know you understand the 
threats very well, and I look forward to working with you.
    Mr. Pekoske. Yes, sir. Thank you very much. You know, I 
would add that the computer tomography, the C.T. capability 
would be a significant improvement in our detection capability 
at the checkpoint, probably the most significant improvement we 
could make in that location.
    Additionally, sir, in our efforts to raise the global bar 
of aviation security, there is a path to get to C.T. deployment 
at last-point-of-departure airports in the future.
    Chairman McCaul. That is very good. Thank you.
    Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. I think, in line 
with what you have just said, there is an on-going interest 
that this committee has had about how long it takes to get new 
technology deployed. It just continues to be a problem. 
Sometimes we are told it is acquisition, sometimes we are told 
it is testing of the equipment, but it just never happens.
    As Mr. Katko mentioned in the earlier briefing, there are 
other airports around the world who already put new technology 
in place. You know, sometime it might just make sense to go to 
the airport and see what they are doing, rather than always 
wanting the other thing.
    I am saying this to say that if we know vulnerabilities 
exist and new technology is somewhere being deployed, I think 
we would be remiss if we didn't pursue that.
    To that question, we were told a few years ago that we are 
spending somewhere around $9 per passenger at airports on 
security per passenger. Do you have an idea what we are 
spending on planes or buses or cruise lines per passenger?
    Mr. Pekoske. No, sir, I don't. Of course in the airport we 
provide the security. At the on-board cruise lines and in mass 
transit systems, the security is provided by the owners and 
operators. We issue guidelines and guidance in that regard.
    Mr. Thompson. So we have nothing to do with security for 
trains?
    Mr. Pekoske. Oh, we do, sir. We have responsibility for 
security, but the way it works is the owners and operators are 
the ones that actually provide the security, unlike in an 
airport where TSA actually provides the security.
    What we do in the surface transportation modes is we 
provide guidelines for what those surface transportation modes 
should do for security. Those are cooperatively developed and 
they are actually quite good.
    Mr. Thompson. So you are saying we have nothing with it 
other than provide the guidelines? We don't provide oversight 
to see what they are doing or anything like that?
    Mr. Pekoske. Yes, sir, we do provide oversight of the 
guidelines that we jointly develop with them. We have regular 
dialog with our surface transportation partners.
    Mr. Thompson. So when someone is not meeting the standard, 
what do you do?
    Mr. Pekoske. We go back to them, have a discussion of where 
the standard shortfall is and our experience with the surface 
transportation modes almost universally is that they are very 
quick to remedy the observations that we make.
    Mr. Thompson. So how do you rank surface transportation 
systems? Pass, fail, marginal, or what?
    Mr. Pekoske. From my perspective, and I was just up in New 
York City and New Jersey visiting the surface transportation 
systems last week, I would mark them as pass at this point. 
There is a pretty significant security effort.
    Mr. Thompson. Yes. I am trying to get to how do you mark 
it? I mean does Amtrak provide you with something and you 
review it and say it is OK? Or how do you do that?
    Mr. Pekoske. What we do sir, is we collaboratively develop 
guidelines as to how we would provide security. That is a very 
beneficial process because the surface transportation owner-
operator has a perspective.
    We talk about the security outcomes that we would like to 
achieve and they come back with OK, we understand that outcome. 
Here is how we think as the operators of the system we can best 
achieve it. Then we agree on a way forward.
    Mr. Thompson. All right. If you have any written reviews of 
passenger rail systems in this country, can you provide that 
information to the committee?
    Mr. Pekoske. Yes, sir.
    [The information follows:]

    The Baseline Assessment for Security Enhancement (BASE) template is 
attached. The template is not SSI until scores are posted.
    The role of the Transportation Security Administration (TSA) in 
surface transportation security includes performing voluntary 
assessments through efforts like the BASE program. The BASE assessment 
includes a comprehensive evaluation of an agency's security program 
elements, which include but are not limited to a transit agency's 
security plans, security awareness and emergency response training, 
drills/exercise programs, public outreach efforts, and background check 
programs. The BASE voluntary assessment incorporates the 17 Security 
and Emergency Management Action Items, which were agreed upon by the 
TSA, the Federal Transit Administration, and industry stakeholders, to 
assess the management of an agency's security program. The Action Items 
are considered foundational for a good security risk-reduction program. 
TSA Surface Transportation Security Inspectors coordinate and conduct 
security assessments of mass transit agencies and passenger rail 
systems, to include Amtrak, through the BASE program.
    TSA recognizes individual agencies that have demonstrated exemplary 
performance in managing their security programs through designation as 
meeting the ``Gold Standard.'' The criterion for achieving the ``Gold 
Standard'' in security is attained by an overall average score of 90 
percent (with no one category receiving a score of less than 70 
percent) on their recent BASE Assessment. Amtrak received the Gold 
Standard Award in 2011 and 2015.

    Mr. Thompson. The next thing. Are you aware that there are 
airports in this country who invested monies in modifying their 
airports pursuant to TSA's direction to accommodate equipment 
that have not been reimbursed over 10 years later?
    Mr. Pekoske. Yes, sir. I believe those are the inline 
baggage systems that some airports many years back put in 
place. Their understanding was that they would be reimbursed 
for that expense.
    They have submitted a claim for that amount. We have 
reviewed those claims and now those claims, once they completed 
our review, are back with those airports.
    I think 14 out of 19 that we agreed were appropriate for 
review, and they are back to those airports for their comments 
on what we adjusted if anything on their submission.
    The challenge is having the funding to be able to pay for 
that investment that they have already made.
    Mr. Thompson. So they have made, at TSA's direction, 
improvements, spent local taxpayers money, and over 10 years 
later we are still back and forth trying to get those airports 
their money?
    Mr. Pekoske. Yes, sir. That is my understanding.
    Mr. Thompson. Well, can you provide us the status of those, 
you said 19 airports?
    Mr. Pekoske. Yes, sir. I think 14 of the 19--there were 19 
total. Fourteen of them actually submitted or we approved them.
    Mr. Thompson. Right. Can you provide that to us?
    Mr. Pekoske. Yes, sir.
    [The information follows:]

    On July 22, 2016, the Transportation Security Administration (TSA) 
began implementation of the seven-step plan, detailed in the 
Reimbursement Review and Validation Plan for In-line Baggage Screening 
Systems, Fiscal Year 2016 Report to Congress (June 16, 2016). TSA is 
currently at step six. TSA provided airports with notification of the 
results of TSA's invoice and payment evaluation. Provision of this 
notice initiated a 30-day period, which concludes on November 30, 2017, 
during which airports may provide justification for an amount above 
what TSA validated. Following the completion of step six, TSA will 
begin step seven to develop a final airport reimbursement list and 
funding request to Congress for the eligible reimbursement amount, 
which is not available in the current appropriation.
    The table below represents the funding requested by each airport in 
their initial application and the amount found eligible based on TSA's 
evaluation of submitted documentation. Initial requested amounts were 
based on each airport's estimate. To determine the eligible 
reimbursement amount, TSA used the Planning Guidelines and Design 
Standards (PGDS) for Checked Baggage Inspection Systems, version 5.0, 
Appendix F, and the TSA Funding of Checked Baggage Inspection System 
Project Costs policy memo, Version 2.0, to determine eligible costs and 
then applied the appropriate TSA/airport cost share (90/10 or 75/25), 
based upon airport size. In a few cases, TSA determined reimbursable 
amounts that exceeded an airport's initial request. This occurred when 
TSA found during its review of submitted invoices that there were more 
allowable and allocable expenditures than reflected in the airport's 
estimate. While the figures may change based upon potential airport 
feedback to the reimbursement letters, TSA currently estimates it will 
seek $217,879,014.36 to reimburse the airports.

----------------------------------------------------------------------------------------------------------------
                                                              Zone(s)/      Airport Requested    *Reimbursement
         Airport Code                 Airport Name           Terminal(s)          Amount        Eligible Amount
----------------------------------------------------------------------------------------------------------------
ACK..........................  Nantucket Memorial         Full airport....      $1,253,425.00      $1,130,113.80
                                Airport.
ACY..........................  Atlantic City              Full airport....       1,841,889.00       2,410,152.42
                                International Airport.
ANC..........................  Ted Stevens Anchorage      C Concourse.....      20,865,295.00      11,774,411.25
                                International Airport.
IND..........................  Indianapolis               Full airport....      19,262,176.87      10,859,490.42
                                International Airport.
JAX..........................  Jacksonville               Full airport....      19,127,803.00      16,363,948.16
                                International Airport.
MCO..........................  Orlando International      A&B.............       1,786,957.69       1,786,957.70
                                Airport.
MCO..........................  Orlando International      Northeast (Pod        10,429,230.64      10,429,230.64
                                Airport.                   C).
MCO..........................  Orlando International      Pods D&E........      32,222,784.53      15,781,149.97
                                Airport.
MDT..........................  Harrisburg International   Full airport....       5,500,000.00       5,503,817.52
                                Airport.
MDW..........................  Chicago Midway             Full airport....      42,621,772.00      14,878,817.08
                                International Airport.
PIT..........................  Pittsburgh International   Full airport....      12,296,215.00       5,175,914.15
                                Airport.
PVD..........................  T.F. Green Airport.......  Full airport....      32,849,931.00      30,294,486.09
RIC..........................  Richmond International     Full airport....       3,976,700.00       3,999,795.62
                                Airport.
RSW..........................  Southwest Florida          Full airport....      21,805,883.00      17,699,173.04
                                International Airport.
SRQ..........................  Sarasota-Bradenton         Single L-3......         502,822.00         451,206.77
                                International Airport.
TPA..........................  Tampa International        Full airport....      93,191,002.50      69,340,349.72
                                Airport.
                              ----------------------------------------------------------------------------------
                                                                                                  217,879,014.36
----------------------------------------------------------------------------------------------------------------
* The eligible amounts may change if airports provide additional information during the 30-day response period
  that ends on November 30, 2017.


    Mr. Thompson. The last item, Mr. Chairman, in 2007, 
Congress passed a bill I authored implementing recommendations 
of the 
9/11 Act. The law required TSA to publish regulations requiring 
transit systems to provide front-line workers with security 
training and develop and implement security plans.
    Over a decade after that bill was enacted, TSA has yet to 
issue these regulations. What is the--you have any idea why 
they haven't done it?
    Mr. Pekoske. Yes, sir. I recognize it has been a very long 
time. As I understand it there is a requirement for a training, 
for vetting and for the security plans. Two of those three are 
well in the process.
    One is in the notice of proposed rulemaking and the other 
in the advanced notice of proposed rulemaking. The third is 
queued up beyond fiscal 2019, so sometime beyond fiscal 2019.
    Mr. Thompson. Fiscal 2019?
    Mr. Pekoske. Yes, sir.
    Mr. Thompson. Twelve years after Congress passed the law.
    Mr. Pekoske. Yes, sir.
    Mr. Thompson. Yes. Well, Mr. Chairman, I think that is in 
line with how we do the technology and some other things. We 
just somehow, and I know you inherited a lot of this, but at 
some point some of this should be done in a more timely manner.
    I would encourage you, Mr. Administrator, to get a sense of 
how many of these issues are outstanding and how do we bring 
closure to them? Otherwise our public will continue to lack the 
confidence necessary in the systems that they use to go back 
and forth in this country.
    I yield back, Mr. Chair.
    Chairman McCaul. The Chair recognizes the gentleman from 
Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Welcome, 
administrator, you got a real challenge ahead of you. This 
agency that you run is broken, badly, and it needs your 
attention.
    I wanna ask you about the fast-tracking of passengers in 
airports. You know, we have got the PreCheck brand, which we 
have been working real hard, TSA has been working real hard to 
make people aware of that they can do this up-front screening 
and pay a one-time fee and get into a faster lane, an expedited 
lane.
    It is a win-win for everybody. But as you know, there has 
been a practice of fast-tracking when the lines are delayed in 
the normal checkpoints, they will pull a group of people out 
and put them into the PreCheck line randomly. Frankly it is 
confusing people who are in the PreCheck line.
    What can you tell us that you can do to make sure we 
maintain the brand for PreCheck that makes people wanna 
participate in it?
    Mr. Pekoske. Yes, sir. Our goal is to increase the 
enrollment of PreCheck. I understand why that activity would be 
a disincentive in a way for people to pay the fee and enroll in 
PreCheck.
    We no longer move people randomly from the standard lane 
into PreCheck. That was done in the past. That is not done any 
longer. What we do though, sir, is if there is a K-9 in the 
checkpoint and the K-9 sweeps a series of passengers without a 
reaction, then we feel we have done some vetting through the K-
9, and we move those passengers into PreCheck. It is a way to 
manage lane throughput.
    Mr. Rogers. OK. Second, you and I talked in my office a 
week or so ago about the need for a National consortium of 
explosive detection K-9s breeding and training experts. I have 
got a bill put together to--and I plan to introduce next week, 
that will have TSA experts along with university researchers, 
private-sector trainers, work to create a scientifically-
validated standard for explosive detection K-9s.
    I want to ask your commitment to work with me with the 
sense of urgency this issue deserves to advance that 
legislation.
    Mr. Pekoske. Yes, sir. You have my commitment. I am a 
strong supporter of K-9 programs. I think they provide a 
tremendous capability for security. I strongly support what 
they are doing.
    Mr. Rogers. Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin. Not here.
    The Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. Thank you, Admiral, 
for your service. I wanna get back to the C.T. technology, the 
3D technology. You said hypothetically that could be done, but 
you are looking at the throughput now. There are prototypes out 
there and other countries are using them.
    So when you are saying hypothetically you could do that 
now, are you saying that the technology doesn't exist? That you 
don't know it is being utilized elsewhere or not?
    Mr. Pekoske. No, sir. The technology most certainly exists, 
and in fact, I am going out and will visit Schiphol Airport 
next week just to see if they have a place----
    Mr. Keating. So if I could interrupt, just because of time, 
I apologize. So what did you mean hypothetically then? So OK, 
we have eliminated that it is not hypothetical because of 
technology. So why is it hypothetical?
    Mr. Pekoske. Hypothetical due to funding.
    Mr. Keating. Oh, that is interesting. So you could use more 
funding to keep people safer?
    Mr. Pekoske. Sir, to invest in the C.T. technology requires 
funding above what TSA currently has.
    Mr. Keating. That is right. Well, that is a great point 
because there are other options for that funding. I mean the 
public, I don't know if they are aware, they are surcharged a 
certain amount of money and $1.28 billion of that has been 
pulled back from what the public gives for deficit reduction. 
We will talk about that later, but at a different venue.
    But you could use $1.28 billion. Now, would that really 
help you in terms of getting rid of the hypothetical because of 
funding?
    Mr. Pekoske. Yes, sir. You know, we compete for funding 
like every other agency does within the Department of Homeland 
Security and within the Federal Government.
    Mr. Keating. Could you use the money, would that really--
how far would that go? That is a lot of money.
    Mr. Pekoske. That is a lot of money, and it would go a long 
way, sir.
    Mr. Keating. So we could be safer, clearly because of 
technology, safer in your opinion, but we are not doing it 
because of money. But we are taking away the passenger-funded 
money and also the President's budget decreases money. Are you 
satisfied with your budget?
    Mr. Pekoske. Sir, I support the President's budget but 
certainly I, you know, I wouldn't disagree with the fact that 
additional money makes us safer and secure.
    Mr. Keating. Well, you support it, but are you satisfied 
that it keeps us safe given the technology that is practically 
available to us right now?
    Mr. Pekoske. Sir, I was not involved when that budget was 
developed----
    Mr. Keating. No, no.
    Mr. Pekoske [continuing]. So I don't know what the trade-
off for that was.
    Mr. Keating. I am just asking your opinion. I am not 
blaming you for the budget.
    [Laughter.]
    Mr. Pekoske. No, and I am not trying to----
    Mr. Keating. We are not--you are satisfied we are safer 
with that budget when you just said that that money being taken 
away from the passenger portion of this and the budget itself--
--
    Mr. Pekoske. Sure.
    Mr. Keating [continuing]. Could make us safer because of 
the 3D scanning? That is not satisfactory to me. Is it 
satisfactory to you?
    Mr. Pekoske. So when that budget was developed, we weren't 
on the path of C.T. development at the checkpoint either. So, 
that wasn't a program that was reviewed for investment when 
that budget was developed.
    Mr. Keating. So it is the sequence----
    Mr. Pekoske. This isn't the----
    Mr. Keating. Now we are there though, right?
    Mr. Pekoske. Right.
    Mr. Keating. So would you favor taking that money back? I 
mean, we have the funds available. We are talking about $10 
billion-plus for a wall. I mean we have the money.
    So you are telling me that we are not safe, Americans 
aren't safe, we have technology available to make them much 
safer, but it is money that is keeping us, not the technology 
itself. I am clear on that?
    Mr. Pekoske. Sir, I don't believe I said that Americans 
weren't safe. In the----
    Mr. Keating. Safer.
    Mr. Pekoske. Safer, yes sir. Certainly, additional 
investment would make travelers, whether Americans or people 
visiting our country, safer.
    Mr. Keating. Is the VIPR program a good program?
    Mr. Pekoske. Yes, sir.
    Mr. Keating. Why is it being cut, 31 teams to 8?
    Mr. Pekoske. Again, it is a trade-off with other 
priorities.
    Mr. Keating. But that was available. You just said, when 
they did the budget and other things, well it wasn't in 
sequence. But this was already there. So we knew about it. So 
that is being cut and that includes K-9, patrol, and those 
teams. So that keeps us safer but we are not funding that 
either.
    Mr. Pekoske. Yes, sir. But, you know, VIPRs and when you 
look at the overall budget, the, you know, here is a question 
to think about is can you use that funding to provide more 
transportation security officers at a checkpoint versus a VIPR 
team? Those are the kinds of trade-offs that are made all the 
time.
    Mr. Keating. Well, I would suggest this. I mean, it is not 
in your purview. I think this is a trade-off with a wall. We 
know, and we can't get into it, what was discussed before at a 
Classified hearing, but we know the--I would call it a present 
danger. That is not talking about anything that is not 
Classified.
    So we have a present danger, right now. We have the 
technology and the resources to do it, but we are not doing it 
because of funding. Because we are taking it away for budget 
reduction, on what people pay themselves out of their own 
pocket to do it. And we are paying for a wall.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Barletta from 
Pennsylvania.
    Mr. Barletta. Thank you, Mr. Chairman. Thank you for being 
here today. For years I have called on Congress and the Obama 
administration to complete a biometric entry-exit screening 
system, which the 9/11 Commission report called ``an essential 
investment in our security.''
    Tracking the arrival and departure of foreign visitors to 
the United States is a critical part of our National security 
and immigration control. Without this information, it is 
impossible to know whether foreign visitors have left the 
country or if they have overstayed their visa.
    Using only biographic information, such as names or 
passport numbers, is not enough because it does not prove, 
without a doubt, that the person leaving is the same person who 
entered. An automated entry and exit screening system for 
foreign nationals entering and departing the United States has 
been required for years and has been ignored to be implemented.
    I am pleased we now have a President whose utmost priority 
is ensuring the safety of the American people. President Trump 
has clearly laid out a series of essential border and National 
security priorities that include the speedy completion of a 
biometric entry-exit tracking system for all travelers to the 
United States.
    Although entry-exit policy and operations are primarily 
under the jurisdiction of U.S. Customs and Border Protection, 
TSA is an important entity in protecting the United States. 
With that, how is TSA working with CBP to utilize biometric 
technology to enhance National security?
    Mr. Pekoske. Yes, sir. Our desire is also to use biometrics 
as as a passenger is approaching the checkpoint. The first stop 
right now is you provide your passport or your driver's 
license, and that is checked by the officer.
    What we would like to eventually get to is also a 
biometric. Our desire is to have the same biometric that U.S. 
Customs and Border Protection uses. We coordinate with them 
extensively on this.
    We have already tested out some biometric technology in our 
checkpoints. Those tests are under evaluation right now, but 
that is the technology we are very interested in.
    Mr. Barletta. How is TSA working to ensure information is 
properly shared between the agencies?
    Mr. Pekoske. Yes, sir. You know, we meet with Customs and 
Border Protection on a regular basis. We have a very strong 
relationship with them. We are both in the same airports, and I 
am confident that we will find a way to share that information 
securely.
    Mr. Barletta. Thank you. Second question, for decades the 
Castro regime has ruled with an iron fist over the nation of 
Cuba. I believe that concessions should not be made until the 
Castro dictatorship gives their people the freedoms that we, as 
Americans, take for granted every day.
    Under the Obama administration commercial flight travel 
between the United States and Cuba resumed. However, we are 
still largely unaware of the day-to-day operations of Cuban 
airports, including employee screening and training and overall 
airport security. The fact that the Cuban government controls 
the vetting and hiring of many airport employees is a 
significant vulnerability.
    Can you please tell me what steps are being taken by TSA to 
address to security risks at Cuban airports and on commercial 
flights between the United States and Cuba?
    Mr. Pekoske. Yes, sir. In our effort to raise the bar on 
global aviation security there are a series of measures, some 
of them have already been implemented, were implemented in 
July, and others began to to be implemented on October 26.
    TSA inspectors have done a tremendous job in visiting all 
280 last-point-of-departure airports to ensure the July 
measures were implemented according to our guidance and found 
that all countries complied, including Cuba.
    While they were in Cuba checking for the July compliance, 
they also checked for the October 26 compliance, and Cuba is 
one of the first countries to actually come into full 
compliance with the October 26 measures. So on a basis of 
overall global standards and our inspection of their efforts to 
get there and achieve those standards, we found them compliant 
with both measures.
    Mr. Barletta. All right. Thank you, and thank you for your 
service. You have a tough job.
    Mr. Pekoske. Thank you, sir.
    Chairman McCaul. The Chair recognizes Mrs. Watson Coleman 
from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Administrator, I live in New Jersey, and I am very 
concerned about the threat to surface transportation systems 
such as mass transit and passenger rail. We have witnessed 
recent attacks in other places against these systems, and we 
also know that al-Qaeda has tried to instruct people on how to 
attack these kinds of places.
    We talk a lot about aviation security and all that is being 
done, but I need to talk to you a little bit and ask you some 
questions about surface transportation.
    Mr. Pekoske. Yes, ma'am.
    Mrs. Watson Coleman. Does the TSA have the authorities that 
is needs to ensure that our Nation's surface transportation 
systems will be secure?
    Mr. Pekoske. Yes, ma'am, we do. We have the authority to 
regulate and we also have the authority to issue security 
directives for our surface transportation systems.
    Mrs. Watson Coleman. Do you have the capacity to do the 
things that you have to authority to do?
    Mr. Pekoske. Ma'am, that is an area that I am looking at 
very closely. As you know, I spent some time up in the New 
York-New Jersey area just last week. I have also met with other 
owners and operators of other surface transportation systems. 
It is an area of focus for me and I want to ensure that we are 
properly resourced for it.
    Mrs. Watson Coleman. Yes. It is an interesting issue that 
is very important to me and the neck of the woods that I come 
from, and I am planning to have a field hearing to discuss this 
and would love to be able to discuss this even with you there.
    I would like to now talk to you a little bit about sort-of 
the morale and, you know, the placement of TSA in sort-of the 
network of good morale-bad morale. It has been traditionally 
low and I was wondering, what is your plan to address this low 
morale issue?
    Mr. Pekoske. Ma'am, you are correct that morale is not 
anywhere near where we would want it to be, but in the most 
recent Federal employee viewpoint survey, our overall numbers 
went up by several points. So the trendline, for the first time 
in many years, is now positive.
    I want to spend a good amount of time understanding this 
morale issue, but I can share with you some things that we have 
already put in place or are planning to put in place very 
shortly.
    One is investing in the leadership of our transportation 
security officers on the front line. In fairness to them, I 
think it is important that we provide them the skills when they 
come into leadership positions so they can properly take care 
of the folks that are now in their charge at the security 
checkpoint, one of the most critical areas for security for us 
in our entire system.
    Additionally I think it is very important that we invest in 
training our transportation security officer cadre to be expert 
at the jobs that they are asked to do, which are, as you said, 
you know, very difficult jobs under a lot of pressure.
    My impression as I have gone to many airports since my time 
as the administrator is that our people are doing an excellent 
job. They are very dedicated to the mission. It is our job as 
an agency to properly provide them the training that they need 
to perform and the support they need to be successful.
    Employee morale is an incredibly high-priority issue for 
me. I would submit that as morale improves, security 
effectiveness improves at the same time and attrition declines.
    Mrs. Watson Coleman. Thank you, Mr. Administrator. It is 
our job to see that you have the resources that you need to 
make sure that as many security procedures and needs are being 
met to keep us all very, very safe.
    For that reason I also support not draining the aviating 
fees back into the general fund when indeed you have such a 
tremendous need and it is such an obvious need and we have a 
responsibility.
    I also am very interested in you as the new administrator 
there, your willingness to commit to reviewing all the policies 
and procedures that lead to pathways to more secure jobs, 
higher-level jobs.
    I have tremendous respect for your front-line employees. I 
encounter them every time I am flying. They are courteous and I 
have found them to be thorough.
    My husband, who carries a bag that is stuffed with 
everything from his childhood to this time in his life, you 
know, often gets taken aside and going through that bag and you 
know and I appreciate that because I recognize that is a 
measure of double-checking.
    Even though he looks real, real innocent and he is a little 
older and all, can't be a problem to anybody, your people are 
very conscientious in doing that.
    But having said that, there are policies and procedures 
that may impede successful retention as well as upward mobility 
for your employees. I am wondering if you will commit to having 
a serious review of those?
    Mr. Pekoske. Yes, ma'am, I absolutely commit to that, and I 
appreciate your comments and the TSA work force. That has been 
my experience as well. You know, I generally appreciate the 
hard work that they have and the good job that they do.
    One of the things that we are working on and we should have 
out in a very short period of time, because I do want to 
shorten the cycle times for TSA decisions, is a career path for 
our front-line officers and required gates of training, both 
resident and nonresident that will be provided to them as they 
go to the next level in the organization as a prerequisite for 
promotion.
    So, you know, I want to place a great of emphasis, and I 
would be very happy to have a further discussion with you on 
it. Thank you.
    Mrs. Watson Coleman. Thank you, Mr. Administrator.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman. While I was waiting my 
turn here to talk to you, I was looking on-line, and I noticed 
about 8 minutes ago that the Trump administration reversed some 
of President Obama's policies with respect to Cuba. Were you 
aware of any of that that was coming down the pike?
    Mr. Pekoske. No, sir.
    Mr. Katko. OK. Well. apparently it is going scale back 
tremendously travel. So if you have the opportunity to digest 
the order I would appreciate you getting back to us on what 
that means for----
    Mr. Pekoske. Yes, sir.
    Mr. Katko [continuing]. Travel and security within Cuba.
    Mr. Pekoske. OK.
    [The information follows:]

    The administration's announcement regarding Cuba pertained to 
travel restrictions for passengers. This does not impact security 
operations. As long as Cuba has direct service to the United States, 
TSA will continue to conduct inspections of carriers serving the United 
States from Cuban airports and meet its legislative mandate of ensuring 
that those airports maintain effective security measures that meet 
international standards.

    Mr. Katko. Thank you. As I may have mentioned to you in a 
previous setting, I got back from a Congressional delegation 
not too long ago. We went to western Europe and to Jordan to 
look at airports and airport security among other things.
    One of the things we have heard from people in Germany and 
in Amsterdam and as well as in Jordan is that security 
officials routinely think that many airports that technically 
meet ICAO standards are actually not living up to those 
standards or they are not adhering to the standards even though 
they have technically been ICAO-approved. Have you heard that 
before?
    Mr. Pekoske. I have not heard that before. I was up at ICAO 
in Montreal back in September and can attest that the ICAO 
standards are actually good standards. What I said in my 
keynote address is that, you know, we need to as as a global 
community press to implement these standards consistently 
across the globe and with a sense of urgency.
    Mr. Katko. How do we do that?
    Mr. Pekoske. Well, primarily, from my perspective, we have 
what is called a quad four. Within the ICAO that is the United 
States, the European Commission, Canada, and Australia and 
amongst the quad four countries we are completely aligned to 
aggressively implement the ICAO standards. We represent most of 
the air traffic in the world. So we will continue to press that 
with our quad four partners in leadership with ICAO.
    I would also say, sir, that, you know, I had the 
opportunity to sit down with the secretary general of ICAO 
while I was there and ICAO is greatly improving the priority of 
security within their organization.
    As you know it was originally a safety organization and now 
has a significant security responsibility. So I was actually 
very heartened by the ICAO staff's commitment to keep on 
pursuing security and being aggressive about it.
    Mr. Katko. Well, you sound far more positive about it than 
your European counterparts do. So it is a disconnect somewhere 
and I would ask you to look into this matter further with your 
European counterparts because they are absolutely expressing 
concerns about many countries, especially countries that fly 
into their airports, that may not be adhering to the minimum 
ICAO standards.
    My take on ICAO is that it is a minimum standard thing and 
some of the airports that meet ICAO standards to me are 
shocking. So I don't necessarily agree with you that the ICAO 
standards are robust for a lot of airports.
    You see a lot of airports like in the Caribbean and in the 
Middle East that technically might be meeting ICAO standards 
that are--it is jaw dropping.
    Mr. Pekoske. Yes, sir. Well, I am going to spend a good 
part of a day with my European Commission counterpart on that 
trip to Europe, so I will have that discussion with him.
    Mr. Katko. The other thing we saw when we went to Europe, 
too, is something that--and I think this is correct, that all 
the European Union airports now mandate 100 percent employee 
screening. Even in the country of Jordan they have mandated 100 
percent screening.
    We saw it first-hand and it is quite robust. We saw it in 
Schiphol Airport as well. They do separate entrances. It 
doesn't seem to be a huge burden for them to maybe anytime 
enter into a secure area to go through a checkpoint. But you 
have the difference in the United States is amazing.
    To me, I want to know your opinion whether it, is it that 
much more difficult in the United States to have 100 percent 
employee screening, because the rest of the world seems to be 
doing it OK?
    Mr. Pekoske. Yes, sir. I share your concern with insider 
threat. I think that is one of the more significant challenges 
facing us as an overall community. That and cargo and certainly 
personal electronic devices as we have discussed earlier.
    I want to get a lot more information as to what is within 
the art of the possible within the United States airports with 
respect to insider threat.
    There are some studies out there that say that, hey, if you 
randomly screen X percent you are as effective as screening 100 
percent, but you don't have the effect on the throughput of 
employees through an airport.
    I just want to take a look at that. I haven't had a chance 
to get deep into it. But I have been in the secure areas of 
airports and of course the--but the secure areas on the tarmac, 
and it is an area that we do need to take another look at.
    Mr. Katko. Well, the largest airport in the world, Atlanta, 
has gone to full employee screening. They don't seem to be 
missing a beat.
    I would just remind you that since I have been in office in 
2015, we have had guns being smuggled routinely on airlines 
from Atlanta to New York. We have had major drug trafficking 
cases all over the country involving insiders. We have had 
flight attendants carrying drugs into the checkpoints because 
they are not screened.
    In the case of Dallas-Fort Worth, for example, we had an 
employee who was checking the manifest to see whether the 
Federal Air Marshals were flying, but his wife was--and he was 
the ringleader for a drug trafficking ring in which he offered 
to bring anything on board including bombs.
    So I don't subscribe to your fact that the risk-based 
screening is working because in that case in Dallas-Fort Worth 
they knew where there screeners were. They just simply called 
their counterparts and went to other entries that weren't 
secure.
    So I would respectfully ask you respond to me within 10 
days or so what your thoughts are when you have a little more 
time as to whether or not employee screening is something we 
should pursue on a more robust basis?
    Mr. Pekoske. Yes, sir. Will do.
    [The information follows:]

    TSA takes insider threat seriously and has taken significant action 
to address such vulnerabilities in America's airports. In the past 
couple of years TSA has taken the following actions to mitigate insider 
threat:
  <bullet> Strengthened aviation worker vetting requirements
  <bullet> Reduced the number of access points to secure areas
  <bullet> Performed focused inspections of airports and airlines
  <bullet> Increased physical screening and inspections of aviation 
        workers
  <bullet> Conducted insider threat vulnerability assessments and 
        developed mitigation plans for identified challenges
  <bullet> Provided insider threat training materials to airports and 
        airlines.
    Most recently, TSA expanded upon a model called ATLAS that 
incorporates intelligence, data, scientific algorithms, and explosives 
expertise. ATLAS uses this information to support smart tactical 
deployment decisions within an airport, with the goal of placing the 
right security asset at the right location at the right time. ATLAS 
looks at the airports in two zones--the public or ``soft target'' areas 
and secured areas--and prioritizes high-risk areas for asset 
deployment. What we have learned through ATLAS is that success is not 
dependent upon the number of employees screened, but rather in 
expanding countermeasures around higher-risk areas in an unpredictable 
manner. This approach is consistent with the Aviation Security Advisory 
Committee's 2015 finding that random and robust countermeasures are 
more effective than 100-percent measures at fixed access points. TSA 
piloted this work in 2016 and 2017 at a number of airports, and plans 
to transition to ATLAS at airports across the country in 2018.

    Mr. Katko. Thank you.
    Mr. Pekoske. OK.
    Chairman McCaul. The Chair recognizes the gentlelady from 
New York, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman. I would like to align 
myself with the comments of my colleague, Mrs. Watson Coleman 
from New Jersey. As you know, New York has one of the most 
extensive public transportation systems in the world, and I am 
glad to hear that that surface transportation is a priority for 
you.
    I would like to join with my colleague to speak with you 
going forward as to what, you know, the results of your 
analysis that you are presently doing.
    Mr. Pekoske. Yes, ma'am.
    Miss Rice. So I think the other thing that you are doing 
well is placing a focus on the morale of the employees. In the 
short time that I have been here, in 3 years, it is a 
persistent problem regardless of who sits in your chair and who 
holds your position. You can understand why.
    They seem to, you know, get fewer resources, fewer 
accolades, fewer that-a-boys, you know, that kind of stuff. So 
I am glad to hear that you are focusing on the morale.
    But I think that one thing that--if you speak to employees 
they would want to make sure that you have their back. A lot of 
that has to do with, are you in a position? Do you feel like 
you can tell the President or anyone in the administration that 
you need certain thing? That policies that they are putting in 
place are maybe not best for the National security, domestic 
security of our country?
    To that end, I don't know if this is something that 
everyone who has to go through who is appointed and has to go 
through some kind of confirmation process. Were you required to 
take any kind of loyalty oath to the President and/or the 
administration?
    Mr. Pekoske. No, ma'am. I was never required to take any 
loyalty oath, and I did go through a confirmation process with 
two Senate committees.
    Miss Rice. So what would you tell employees? I mean if you 
are doing this analysis of surface transportation and you are 
looking at all the other issues my colleagues have raised here, 
if something came up short do you feel that you have the 
ability to say that publicly and ask for more resources from 
either Congress or the administration through administrative 
action that you might want to take?
    Mr. Pekoske. You know, my job is to advocate for 
transportation security and advocate for it strongly and 
advocate for our employees having the right tools and the right 
number of people and the right training to do their jobs.
    I advocate for that as the budgets are being built inside 
the administration, so right now we are working on the fiscal 
2019 budget. You know, my job is to be their strongest advocate 
in that process to make sure that we get the resources that we 
need to do our jobs.
    However, you know, I am never going to get all of the 
resources that I need, and I don't think any agency leader 
would say that is the case. There are trade-offs that are made 
within budget limits.
    So, you know, my job working with the Secretary is to make 
sure that those trade-offs, if they need to be made, are made 
considering the urgency of the requirements we have in TSA.
    Miss Rice. Well, I mean, you really, your work force is the 
first line of defense.
    Mr. Pekoske. Right.
    Miss Rice. So I am glad that you recognize that. Just final 
question, what is--how long have you been in this position?
    Mr. Pekoske. Almost 3 months.
    Miss Rice. You feel like it is a lifetime?
    Mr. Pekoske. No, no.
    [Laughter.]
    Miss Rice. What would you say are your two or three biggest 
challenges as you see them in the short time that you have been 
there?
    Mr. Pekoske. Yes. That is a great question, ma'am. I see 
the two or three biggest challenges. The first would be 
bringing more technology into the checkpoint environment. You 
know, it is clear to me that that that needs to be done, and I 
don't think anybody really disputes that that needs to be done 
and to try to do it as urgently as we can.
    Because if I were a transportation security officer working 
on the front line--and I have watched them. I have been with 
many, many of them over the last several weeks. You know, you 
are going to do a better job if you are more confident on the 
technology that is assisting you in doing that job.
    Plus, that reinforces that your agency and your Government 
is willing to invest in the tools to do the job that you are 
being asked to do. So my focus is first on technology and into 
the system through innovation.
    The other focus is on the work force because as you just 
said, that work force is our last line of defense in many 
cases. The work force consists of the folks at the checkpoint. 
We have a good number of people that do a lot of vetting for 
passengers before they even get to the airport.
    We have inspectors literally around the world that inspect 
compliance with our regulations. We have Federal Air Marshals 
that are in aircraft that secure aircraft in flight.
    So, you know, that whole system of employees, you know, to 
me, I want to focus and make sure they have the tools, the 
training, the support that they need.
    I do that by, you know, my goal as the administrator is to 
be out of the District of Columbia as often as I am in the 
District of Columbia. So at least try to hit a 50/50 balance. I 
have actually exceeded that in the first couple of months 
because I wanted to just get out and introduce myself.
    Finally, whenever I do get out into the field, which is at 
least once a week, sometimes more, I do hold town halls with 
all of our employees and I want to hear their points of view, 
what their concerns are. Then it is on me. Once they raise a 
point of view or an issue, to get back to them with a 
resolution.
    Miss Rice. If I could I just make one suggestion? Your 
predecessor, Secretary Neffenger had a big focus on trying to 
increase the morale among your work force.
    Mr. Pekoske. Right.
    Miss Rice. I would just ask you, and I don't know if you 
have spoken to him to kind-of work----
    Mr. Pekoske. I have, ma'am.
    Miss Rice [continuing]. Which I think would be a great 
resource, but he put a focus on training, giving additional, 
like, on-going training for----
    Mr. Pekoske. Right.
    Miss Rice. I don't know if you have continued that or if 
you have chosen to change that training of the work force?
    Mr. Pekoske. Yes, ma'am. No, I didn't change it, actually 
enhanced it.
    Miss Rice. OK.
    Mr. Pekoske. Because he was exactly right, and what he did 
was he instituted a TSA academy where all new employees went to 
this academy in Glynco, Georgia for 2 weeks of introductory 
training into TSA. We have absolutely continued that.
    Then what we have done is we have mapped out a career path 
for our front-line employees at the check lanes. This shows the 
training that they will receive from us to make them eligible 
for promotions to different levels within the checkpoint.
    That hasn't been done in the past. That has been one of the 
challenges of trying to think about it and map it forward and 
publish it.
    So we intend to publish this so that our new employees and 
actually the folks that have been seasoned employees with TSA 
can look at, hey, this is my career path from an entry level to 
becoming a supervisor at the checkpoint. Here is both the 
resident and nonresident training that TSA will provide me to 
equip me to be ready for those positions.
    Miss Rice. That is great. I thank you very much.
    Mr. Pekoske. Thank you.
    Miss Rice. I yield back. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Admiral, thank you for appearing before us today. Thank you 
for your service to our country. Sir, baggage screening 
technology, computer tomography, utilizes 3D imaging.
    Mr. Pekoske. Right.
    Mr. Higgins. Through the PreCheck or the non-PreCheck line, 
all bags are checked in this manner. Is that correct?
    Mr. Pekoske. That is correct.
    Mr. Higgins. In the non-PreCheck line, the human being has 
to remove their shoes----
    Mr. Pekoske. Yes, sir.
    Mr. Higgins [continuing]. Checked in a similar manner. Is 
that correct?
    Mr. Pekoske. That is correct.
    Mr. Higgins. If a threat is detected in baggage that goes 
through the screening, then that bag is physically checked by a 
TSA operator. Is that correct?
    Mr. Pekoske. Yes, sir.
    Mr. Higgins. In a similar manner the human being, if some 
sort of a density, a threat is detected on that human, then 
that person is checked in a similar matter by a TSA agent. Is 
that correct?
    Mr. Pekoske. That is correct.
    Mr. Higgins. Patted down----
    Mr. Pekoske. Yes.
    Mr. Higgins [continuing]. And wanded, et cetera.
    Mr. Pekoske. Right.
    Mr. Higgins. For the PreCheck passengers, are PreCheck 
passengers required to remove their shoes?
    Mr. Pekoske. No, they are not.
    Mr. Higgins. Their baggage is checked on in a similar 
manner with non-PreCheck.
    Mr. Pekoske. The baggage is checked in a similar manner. 
The difference, sir, is that PreCheck passengers don't have to 
divest themselves of electronic devices. They can keep them in 
their bags.
    Mr. Higgins. Right, and a PreCheck passenger goes through a 
metal detector, correct?
    Mr. Pekoske. It does.
    Mr. Higgins. Will the metal detector detect a ceramic or a 
composite plastic knife?
    Mr. Pekoske. No, metal detectors are designed to detect 
metallic objections. So we know that they won't detect some 
objects.
    Mr. Higgins. Will a metal detector detect an all-plastic 
component, pepper spray, or mace device?
    Mr. Pekoske. Likely not.
    Mr. Higgins. I am sure you are aware that the 9/11 
hijackers used knives and mace and pepper spray to hijack their 
plane. Is that correct?
    Mr. Pekoske. That is correct.
    Mr. Higgins. So would you agree, based on what we have just 
discussed, that the final line of defense regarding protecting 
our citizenry from in-flight hijacking threat is the Federal 
Air Marshal Service and the Flight Deck Officer Program? Would 
you concur that that is the final line of defense?
    Mr. Pekoske. Yes, sir, but I would also say that there is a 
very front line to that overall posture and that is the vetting 
process that gets folks into PreCheck in the first place. So 
our assumption, based on the vetting, through a vetting of 
those passengers, is that they represent less risk.
    Mr. Higgins. Understood, but well, we just determined that 
there is certainly a possibility, given the current 
technology----
    Mr. Pekoske. Right.
    Mr. Higgins [continuing]. That is in use right now across 
the country, many, many millions of PreCheck passengers could 
potentially pose a threat. You agree?
    Mr. Pekoske. Yes, sir. There is never a 100 percent 
guarantee. That is always a potential.
    Mr. Higgins. Exactly. So the final line of defense being 
the Federal Air Marshal Service and the Flight Deck Officer 
Program, the Federal Air Marshal Service has not hired any air 
marshals or supervisors since 2011. Is that correct?
    Mr. Pekoske. No, sir, I believe they have hired in the last 
couple years.
    Mr. Higgins. OK. Well, do you know what those numbers are?
    Mr. Pekoske. I do not.
    Mr. Higgins. Can you provide that please?
    Mr. Pekoske. Yes, sir.
    [The information follows:]

  <bullet> 463 total (320 in fiscal year 2016 and 143 in fiscal year 
        2017). Prior to fiscal year 2016 and fiscal year 2017, the last 
        hire year was in 2011.
  <bullet> Over 30 percent of the individuals hired in fiscal year 2016 
        and fiscal year 2017 were veterans.

    Mr. Higgins. I am also advised that the Federal Air Marshal 
Service does not have a complete and timely data report to the 
extent to which air marshals have completed their recurrent 
training, their annual recurrent training.
    Do you have data reflective of just exactly to what extent 
our current air marshals have maintained their training, their 
annual training?
    Mr. Pekoske. My understanding, sir, is that we do track 
their currency with annual training, but I don't know how we 
collect it. I don't know if there is a database, per se, that 
does that. I don't know whether it is done manually or by a 
database.
    Mr. Higgins. Are you satisfied that the Federal Air Marshal 
Service--and as well let us not overlook the Flight Deck 
Officer Program, which allow pilots and other flight crew 
members to take part in special Federal Air Marshal training 
courses in self-defense and close range target instruction.
    Are you satisfied with that level of training or would you 
share with the committee, please, what your plans are to beef 
that up?
    Mr. Pekoske. For the FFDO, sir? The Federal Flight----
    Mr. Higgins. I would certainly like to hear your opinion 
about it.
    Mr. Pekoske. Yes, sir. In fact, I have been through part of 
the training that the FFDOs are provided. I think that training 
is excellent overall. The number of people enrolled in the FFDO 
program, I believe, has grown over the course of time.
    It is a very beneficial program, from my perspective, for 
in-flight security coupled with our Federal Air Marshals who 
are on--you know, there is a reasonable possibility that they 
are going to be on a flight a passenger is on.
    Mr. Higgins. Well, thank you for your attention to that 
matter. I believe it is urgent.
    Mr. Chairman, I will yield back.
    Chairman McCaul. The Chair now recognizes the gentleman 
from California, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member 
Thompson. I want to thank you both for holding this most 
important hearing.
    Administrator Pekoske, want to thank you also for your 
comments, for you testimony. Before this hearing I just want to 
let you know I reached out to John Wayne Airport, which is the 
only international airport in Orange County, California, my 
home county, I should say.
    I was pleased to learn that the airport John Wayne enjoys a 
pretty productive relationship with TSA, and I thank you and 
TSA for continuing to commit to the security of our passengers 
in Orange County.
    Mr. Pekoske. Sir, thank you.
    Mr. Correa. I wanted to also follow up with some of the 
comments of Miss Rice and Ms. Watson, specifically on TSA 
personnel and morale. The more I learn about the job TSA is 
entrusted with, the more I think of them as first responders, 
really, as police officers, as firefighters.
    The job they have is a very serious one. The burden is a 
tremendous one. Again, failure is unacceptable and so, you 
know, I am concerned about retention rates, you know, morale. 
What is your retention rate like?
    Mr. Pekoske. Sir, the retention rate for full-time 
employees across the entire enterprise, and it varies by 
airport, based somewhat on cost of living based on airport size 
and things like that, but average across the enterprise is 
about 12 percent for full-time employees.
    I agree with you, I think that----
    Mr. Correa. So excuse me, 12 percent stay and 88 percent 
move on or is it----
    Mr. Pekoske. No, no, no, 12 percent attrite, 12 percent 
leave every year.
    Mr. Correa. Twelve percent attrition rate OK.
    Mr. Pekoske. Yes, sir. Right. I am sorry. Yes, 12 percent 
attrition, but like I said it varies by airport.
    Mr. Correa. So you talked about a 2-week academy training. 
Is that enough given that we continue to face threats that are 
always evolving technologically and every other way? Do you 
have continuing training for these individuals so that they are 
up to par as to what is going on?
    Mr. Pekoske. Yes, sir. There is continuing training 
provided at the airport as on-the-job training and also 
instructor-led training at the airport. That is coupled with 
the TSA academy.
    Additionally, as we build out the roadmap, the career 
roadmap for our transportation security officers, there are 
going to be other opportunities for them to go back to Glynco, 
Georgia for training.
    Mr. Correa. Let me interrupt you, I don't have much time. 
How long does the average TSA employee stay at TSA?
    Mr. Pekoske. Sir, I don't know that off the top of my head. 
I do know what the attrition rate is, but I don't know what the 
average is. I have seen----
    Mr. Correa. Thank you. The reason I ask is that I think 
that if you, you know, if you figure out how to get the morale 
up, which I believe----
    Mr. Pekoske. Right.
    Mr. Correa [continuing]. Is appreciating and having folks 
recognize the importance of TSA personnel, which that is a 
function of on-going training and probably salary and other 
things.
    But the longer they are there the more expert they become 
at recognizing things that are not normal and therefore being 
able to investigate.
    So, you know, I would like to work with you, this 
committee, I think, would like to work in making sure that your 
personnel are more professional so that they are looked upon 
and they feel like a police officer would feel, a firefighter 
would feel, which is you know what? Our job is an important 
one, and we have got to take it that way. You just can't have 
folks showing up to work and say, here I go, another 8 hours.
    Mr. Pekoske. Right.
    Mr. Correa. But rather, here I go. I have got an important 
job to do.
    Mr. Pekoske. Yes, sir, couldn't agree more.
    Mr. Correa. Thank you very much.
    Mr. Chair, I yield the remainder of my time.
    Chairman McCaul. The Chair recognizes the gentlelady form 
California, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman. My district is home 
to the Port of Los Angeles. I like to call it America's port. 
We just had a field hearing out there. I want to thank the 
Chairman and the Ranking Member for doing that.
    The Port of Los Angeles manages a high volume of traffic 
and features both passenger and cargo terminals. Last week, 
when we had the field hearing, one of the witnesses we had from 
the ILWU, Mr. Familathe, expressed some concerns over the TWIC 
Program, the Transportation Worker Identification Credential 
program.
    He described it as, ``a feel-good measure.'' He said it was 
ineffective and expensive and it posed significant hardships on 
Americans who work on the waterfront.
    He highlighted some problems with enrollment delays, due 
process concerns for employees who have to appeal a TSA interim 
denial. In these cases the burden, he mentioned, falls on the 
workers to obtain court and police records in order to prove 
there are no disqualifying convictions. Is evaluating TWIC to 
find ways to improve the program a priority for you?
    Mr. Pekoske. Ma'am, the TWIC program has been in place for 
a good number of years. In fact, I used to have a TWIC card 
myself and I just recently looked at the throughput data for 
TWIC enrollment.
    Actually TWIC enrollment proceeds relatively quickly, as 
quickly as most of the other credentialing programs, unless 
there is an anomaly that needs further investigation. So that 
is, perhaps, what you are talking about or what somebody talked 
with you about.
    I will go back and take a look at how long it takes to 
resolve some of those issues, but again, most of the burden to 
provide documentation to support a potential TWIC enrollee, you 
know, somebody who might get a TWIC card to support their 
contention that they should have one, falls on them.
    Ms. Barragan. Yes. I think there are greater problems than 
with just that, the enrollment process, and maybe we can talk 
more about that.
    Mr. Pekoske. OK.
    [The information follows:]

    TSA currently processes 95 percent of TWIC applications within 8-
10 days of enrollment. Approved applicants within that group receive a 
TWIC card by mail or at an enrollment center in less than 14 days 
after enrollment. For the remaining 5 percent of applicants, additional 
adjudication and redress processing may be required if TSA makes an 
initial determination of ineligibility for a TWIC. Applicant requests 
for appeals are generally processed within 14 days of receipt. 
Applicant requests for waivers can take up to or exceed 30 days 
depending on the severity of the disqualifying crime and the submitted 
documentation. According to 46 U.S.C.  70105, TSA is required to 
review and respond to TWIC applications as appropriate, within 30 days 
after receipt of initial application. TSA is in compliance with Federal 
statute and regulation(s) on TWIC processing times.

    Ms. Barragan. I know that in the 114th Congress they 
enacted a bill, the Essential Transportation Worker 
Identification Credential Assessment Act requiring the DHS 
commission an outside organization to conduct a comprehensive 
assessment of the benefits and cost of the TWIC card.
    Do you know what the status of that is, and do you expect 
the assessment to be completed within the time line established 
by the legislation, which is in March 2018?
    Mr. Pekoske. No, I do not know what the status of that is, 
but I would be happy to get back to you with that information.
    Ms. Barragan. OK. If maybe we can get something in writing 
that would be fantastic.
    Mr. Pekoske. Sure. OK.
    [The information follows:]

    DHS S&T is responsible for commissioning the third-party assessment 
and is in the process of completing this action with a target 
completion by mid-calendar year 2019. Once the assessment is completed, 
DHS will submit a corrective action plan to accompany the assessment, 
in accordance with the requirements of Public Law 114-278 and address 
any deficiencies in the effectiveness of the program.

    Ms. Barragan. Then I want to echo the concerns by some of 
my colleagues about the disturbing briefing that we had this 
morning. I was able to come to part of it. I had a mark-up this 
morning.
    I had an experience about a month ago. I was flying home to 
California, and I was in an airport that it was pretty empty. I 
don't think we saw a passenger go through TSA for about 20 
minutes. It allowed me to stand there and talk to some of the 
TSA agents.
    They said would you take one issue to Congress? You know, 
here we are with the people that are tasked with, you know, 
stopping explosives from going through onto a plane, which 
could prevent a terrorist attack, yet the morale is low and the 
pay, we haven't had an increase.
    So I wanted to first just mention that because I promised 
the TSA agent that I ran into that I would bring this back and 
certainly ask about it.
    I wonder if that would help what we are seeing to improve 
not just morale, but to make sure we are getting people in 
these positions who are being very thorough and making sure we 
are not missing any, you know, possible threatening situations 
from coming through the airports.
    Mr. Pekoske. Yes, I certainly think it would help. In fact, 
part of the roadmap for career development has pay gates. It 
shows when you enter what you are paid, not adjusted for COLA, 
because that is going to change by airport, but what the basic 
pay is and then what your pay increase gates would be, because 
that is a common issue that I have heard as well is that, you 
know, you join TSA.
    You are a TSO, and you haven't had a pay raise where most 
other employees, whether it is private sector or Government, 
gets some kind of a longevity increase along the way.
    What we try to do in this career path roadmap was to key 
pay raises to achievement of certain training goals. For 
example, when you come in to TSA and you finally go off to the 
TSA academy within the first 180 days of your employment, upon 
graduation from that academy program you would get a pay raise.
    Then if you got promoted to a lead transportation security 
officer, somebody who is on charge of that particular check 
lane, you would get another pay raise, and we would map those 
on out on a percentage basis.
    So somebody could see if I entered at the entry-level pay, 
what pay, hypothetically within 4 or 5 years, might it be able 
to achieve if I got all this training and I was a very good 
performer.
    So part of it is to kind-of map out what that pay increase 
would be and importantly for me is also what kind of skill 
development and training and leadership development that we 
would provide.
    Ms. Barragan. Great, thank you.
    I yield back.
    Mr. Pekoske. OK, thanks.
    Chairman McCaul. The Ranking Member is recognized.
    Mr. Thompson. Thank you, Mr. Chairman. A couple things, Mr. 
Administrator, whistleblower protections, is there a reason why 
we don't offer the same protection for our TSA work force as 
other Federal employees?
    Mr. Pekoske. Sir, I don't know that we don't. I thought 
that we did provide whistleblower protection. I will go back 
and take a look at that.
    Mr. Thompson. Well, yes.
    Mr. Pekoske. Certainly from my perspective, whistleblowers 
should be protected from retaliation or reprisal.
    Mr. Thompson. Absolutely. If you would, check that out and 
get back to us. There is some misunderstanding of the language 
and employees feel like they can't do the right thing for fear 
of reprisal. I think it would be very helpful.
    [The information follows:]

    TSA employees have the same whistleblower protections as other 
Federal employees.
    The Whistleblower Protection Enhancement Act of 2012 provides that: 
``Notwithstanding any other provision of law, any individual holding or 
applying for a position within the Transportation Security 
Administration shall be covered by: (1) The provisions of section 
2302(b)(1), (8), and (9) [this includes the prohibited personnel 
practices regarding whistleblower retaliation]; (2) any provision of 
law implementing 2302(b)(1), (8), or (9) by providing any right or 
remedy available to an employee or applicant for employment in the 
civil service; and (3) any rule or regulation prescribed under any 
provision of law referred to in paragraph (1) or (2).'' 5 U.S.C.  
2304(a).

    Mr. Pekoske. Yes, sir, because I want them to do the right 
thing, period.
    Mr. Thompson. Absolutely. The Chairman talked about C.T. 
scanners and other things in his comments, and I think everyone 
kind-of agreed that that is the way forward in terms of new 
technology. Some of us have looked at the air cargo situation 
as one of the ways to move that.
    I think there is a demonstration, perhaps on the way 
somewhere with that in light of what happened in Australia.
    Mr. Pekoske. Yes, sir.
    Mr. Thompson. You know, we are trying to pursue legislation 
that would move that along. We have some ideas about it, and 
the facts about I have introduced the Air Cargo Security 
Improvement Act of 2017.
    I would like for you to look at it and get some views back 
to us on whether you think C.T. scanning makes sense and it is 
the right thing and all of that.
    Mr. Pekoske. Yes, sir. I do know that the way you check air 
cargo can vary and be effective in, for example, the use of K-
9s to check pallets of air cargo.
    The challenge with C.T. technology, as I understand it, 
with respect to cargo in particular, is the aperture is not 
large enough to get some pallets through, and so it would 
require a breakdown of a pallet and then rebuild of a pallet. 
So we are looking at other means that cargo carriers can use to 
achieve the same security outcome.
    Mr. Thompson. OK.
    Mr. Pekoske. Yes.
    Mr. Thompson. Thank you. You will get back to us?
    Mr. Pekoske. Yes, sir. Yes, sir. So we are also working 
with Customs and Border Protection on their air cargo advanced 
screening process. We have some emergency amendments and 
security directives issued with respect to air cargo and some 
of the procedures to use ACAS information to clear cargo coming 
through the United States.
    Mr. Thompson. OK. Thank you.
    Mr. Pekoske. Thank you.
    Mr. Thompson. I yield back.
    Chairman McCaul. Thank you, Admiral, for your testimony 
today. Congratulations on your position and your first 
testimony for this committee.
    The Ranking Member and I will be sending a letter to the 
Secretary voicing our concerns over the inspector general's 
report and addressing our path moving forward, particularly 
with respect to technology to address the threats that we face.
    So with that, Members may have additional questions, and 
pursuant to the rules, the hearing will be held up for 10 days. 
Without objection, the committee stands adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Questions From Hon. John Katko for David P. Pekoske
    Question 1. It is my understanding that TSA has been trying to 
finalize the Information Technology Infrastructure Program (ITIP) 
procurement for more than 4.5 years, and there have been numerous 
issues and delays such as the addition of 13 Amendments and a pre-award 
protest. What steps have TSA done to finalize ITIP procurement?
    Question 2. Given the TSA's significant budget gap, has TSA looked 
at any cost-saving measures while ITIP is being finalized?
    If so, what measures specifically?
    Answer. TSA has been working to award IT Management, Performance 
Analysis, and Collaborative Technologies (IMPACT)--TSA's successor 
contract to ITIP--for 19 months. Below is a time line outlining key 
dates.
  <bullet> May 9, 2016--Task Order Request for Proposal (TORP) Issued
  <bullet> July 26, 2016--Proposals Received
  <bullet> December 15, 2016--TSA entered into exchanges with offerors 
        regarding their proposals
  <bullet> January 25, 2017--Offerors provide revised proposals to 
        address the exchange topics
  <bullet> June 29, 2017--Pre-award protest filed with General 
        Accounting Office (GAO)
  <bullet> July 26, 2017--TSA notified GAO of intent to take corrective 
        action
  <bullet> July 31, 2017--GAO dismissed pre-award protest
  <bullet> August 23, 2017--TSA initiated corrective action with 
        offerors
  <bullet> September 15, 2017--Pre-Award Protest filed with GAO
  <bullet> September 18, 2017--Revised proposals due to TSA
  <bullet> December 24, 2017--Anticipate GAO decision on pre-award 
        protest filed in September 2017.
    Prior to issuance of the IMPACT TORP in May 2016, TSA conducted 
market research, which engaged industry regarding procurement strategy, 
technical scope, business models, and potential solutions to the 
successor contract to ITIP. TSA began this market research in summer of 
2014 and informed industry that any and all input may or may not be 
used for TSA's final requirement. TSA released the IMPACT solicitation 
to industry on May 9, 2016, which manifested TSA's final requirement.
    Thereafter, TSA has issued 14 amendments to the solicitation:
  <bullet> TSA issued six amendments prior to receipt of initial 
        proposals. Those six amendments made administrative changes to 
        the IMPACT solicitation and responded to Offerors' questions.
  <bullet> TSA issued four amendments during the exchange period, which 
        began on December 15, 2016, and concluded on January 25, 2017, 
        when all Offerors submitted revised proposals; these four 
        amendments responded to Offeror questions, revised Statement of 
        Objectives language, and updated historical volumetric data.
  <bullet> The remaining four amendments initiated the corrective 
        action of July 26, 2017, responded to additional questions from 
        Offerors, and made minor administrative changes.
    Revised proposals based on the corrective action were submitted on 
September 18, 2017.
    TSA is currently evaluating all proposals to select the best value 
awardee. The ability to award a contract based upon the corrective 
action proposals depends upon the GAO decision regarding the September 
15, 2017 pre-award protest; this decision is expected on or about 
December 24, 2017.
    TSA is implementing cost-savings measures with its procurement 
strategy and using a performance-based approach to supporting TSA's IT 
Infrastructure. TSA informed industry of the anticipated future budget 
to support TSA's IT Infrastructure during their engagement activities. 
TSA then issued a Statement of Objectives solicitation, which 
identified TSA's performance goals and objectives. In response, the 
offerors were free to propose their unique approaches to meet or exceed 
TSA's goals and objectives. By allowing industry to propose 
individualized approaches, offerors can utilize methods to fulfill the 
performance goals and objectives at a competitive price, thus offering 
cost savings.
    Questions From Hon. Daniel M. Donovan, Jr. for David P. Pekoske
    Question 1. I understand that TSA is considering a change to the 
policy governing ambulance access to the tarmac at John F. Kennedy 
International Airport. Currently, ambulances must be escorted by the 
Port Authority Police Department, but under the change police escort 
would no longer be required. I am concerned about the security impact 
of this policy change. What is the rationale for this change?
    Answer. TSA is not currently considering a change to the policy 
governing ambulance access to the tarmac at John F. Kennedy 
International Airport (JFK). The Port Authority Police Department 
policy of escorting Emergency Medical Services at JFK remains in 
effect.
    Question 2a. Is TSA adequately prepared to respond to a chemical 
terrorism event and the intentional release of a chemical warfare agent 
at an airport?
    Answer. In the event of an attack, TSA will follow the directions 
of Public Safety Officials and will direct TSA personnel away from the 
immediate area. TSA is not a first responder in the event of a chemical 
attack and our personnel do not carry chemical response equipment. 
Airports may conduct chemical attack training and exercises to ensure 
TSA personnel are aware of the proper response to an event.
    Question 2b. What procedures and systems do you have in place to 
ensure an efficient response?
    Answer. Each airport is required to complete a local Tactical 
Response Plan to provide local response procedures in the event of a 
chemical attack. In the event of a chemical attack, Federal Security 
Directors will complete the following high-level actions:
  <bullet> Complete a life/safety check and analysis of the situation 
        and danger to TSA employees and facilities.
    <bullet> Initiate a Personnel Accountability Drill.
    <bullet> Coordinate emergency medical response, as required for TSA 
            personnel.
  <bullet> Follow the directions of Public Safety Officials and direct 
        TSA personnel away from the immediate area.
  <bullet> Shut down and/or isolate air circulation units to mitigate 
        impacts to the occupants from airborne contamination.
  <bullet> Maintain relationships and coordinate with key industry 
        stakeholders.
  <bullet> Institute continuity of operations plans.
    Question 3. What is the scope of training provided to TSA employees 
for responding to a chemical terrorism event and the intentional 
release of a CWA?
    Answer. Local TSA officials are encouraged to participate in 
chemical/biological attack training and exercises with airport 
stakeholders.
    Additionally, TSA prepares information briefings for the 
Transportation Security Officer (TSO) workforce on an annual basis that 
focus on emerging or continuing threats, including chemical and 
biological threats. In September 2017, TSA released a ``Threat In The 
Spotlight'' briefing for all officers, titled ``Hazards of a Chemical 
or Biological Release,'' to raise awareness.
 Questions From Ranking Member Bennie G. Thompson for David P. Pekoske
    Question 1a. For the past 16 years, a statutory footnote to 
Aviation and Transportation Security Act granted the TSA Administrator 
extraordinary authority over the Transportation Security Officer, or 
screener workforce. The result has been that TSA has deviated from the 
statutory framework of title 5 of the U.S. Code including the Federal 
Service Management Relations Statute, and circumvented the jurisdiction 
of administrative bodies including the Federal Labor Relations 
Authority (which governs Federal labor-management relations, including 
labor rights). Initially, Congress provided the broad hiring authority 
to the Administrator so that the agency could quickly beef up the staff 
numbers and have flexibility in doing so.
    Have you reviewed the personnel system?
    Question 1b. Do you think that it is more effective to have a 
system separate from other Federal agencies?
    Question 1c. TSA has had issues in the past with senior executives 
receiving egregious bonuses due to loopholes in TSA's personnel 
management system. Have you considered whether switching the agency to 
full Title 5 compliance would help avoid such issues?
    Question 1d. TSA is the only DHS component where most employees 
lack basic rights and protections under Title 5. Under Title 5 unions 
representing workers can negotiate many issues of importance to 
workers. TSA has refused to negotiate with the elected exclusive 
representative of TSOs over many issues that help determine workplace 
satisfaction, including the annual proficiency (certification) review, 
grievance procedures, awards, break times, and child care subsidies. 
How do you intend to address this situation?
    Answer.
Review of Personnel System & Effectiveness of System
    Since being confirmed as administrator, I have held several town 
halls with non-supervisory TSOs, supervisory TSOs, Federal Air 
Marshals, vetting analysts, and Headquarters employees. The personnel 
system continuously comes up in these discussions. My focus is on 
increasing security effectiveness, enhancing the workforce, and 
improving employee job satisfaction. I continue to evaluate different 
ways in which to achieve these goals and have a number of initiatives 
under way.
Transportation Security Executive Service Bonuses
    For executive awards, TSA follows the system established by DHS and 
the Office of Management and Budget. All TSA policies for the 
Transportation Security Executive Service (TSES) are cleared by DHS and 
the Department Chief Human Capital Officer prior to implementation. TSA 
has imposed restrictions on the aggregate amount of monetary awards, 
excluding performance awards, to not more than $10,000 for any 
employee, per calendar year. TSA also mandated significant controls, 
including a requirement that awards for executives would be submitted 
by the supervisor, reviewed by the Assistant Administrator for the 
Office of Human Capital, and approved by the TSA Deputy Administrator. 
Further, all monetary awards in excess of $6,000 must be approved by 
the Department of Homeland Security Deputy Secretary. This applies to 
all TSA employees, including TSES members. For calendar year 2017 TSES 
bonuses, TSA followed DHS guidelines and dispersed bonuses to TSES 
employees who received an ``achieved excellence'' (9.5 percent) and 
``exceeded expectations'' (6 percent) performance ratings. These 
performance ratings and bonus percentages were recommended by the TSA 
Personnel Review Board (PRB) and reviewed/approved by DHS.
Collective Bargaining for Non-Supervisory Screeners
    Since TSA first extended collective bargaining rights to non-
supervisory screeners in 2011, TSA has worked with the American 
Federation of Government Employees (AFGE) to negotiate two collective 
bargaining agreements (CBAs). TSA and AFGE finished negotiations on the 
second CBA in 2016. In reaching agreement on the second CBA, TSA 
engaged in good-faith negotiations over the issues open for bargaining 
within TSA's unique labor framework. TSA did not refuse to negotiate 
over any such issue with AFGE. The issues open for bargaining are non-
security-related issues, such as performance management process, awards 
and recognition process, attendance management process, shift and 
annual leave bid process, transfer policy, shift trade policy and 
uniforms and uniform allowances. This CBA is currently in effect.
    TSA's unique labor framework is intended to promote fulfilment of 
our security mission and provide the agility necessary to protect the 
security of the traveling public. While TSA affords personnel due 
process in individual disciplinary matters, the labor framework itself 
must enable TSA to change security procedures, practices, and 
technology swiftly in response to new intelligence.
    Question 2a. In July, GAO released findings (GAO-17-608R) on TSA's 
behavior detection practices. GAO found that TSA ``does not have valid 
evidence that most of the revised behavioral indicators (28 of 36) used 
in its behavior detection activities can be used to identify 
individuals who may pose a threat to aviation security.'' These 
findings are concerning and GAO has previously raised concerns about 
TSA's behavior detection practices.
    I realize that all of GAO's findings pre-date your tenure, but have 
you reviewed GAO's findings?
    Question 2b. How are you planning to incorporate their findings 
into TSA's operations?
    Answer. I have reviewed GAO's findings and appreciate their work to 
identify ways for TSA to improve operations. TSA has taken steps to 
refine our behavior detection capability. A major step was eliminating 
the stand-alone behavior detection officer position in January 2017, 
and integrating functions into those of other Transportation Security 
Officers (TSO) with behavior detection capabilities. We also reduced 
our original list of 90 behavior indicators to a final list of 39, 
which will be rolled out beginning in calendar year 2018. This revised 
protocol focuses on reducing the cognitive load for an officer trained 
in behavior detection and does not impact the screening operation.
    Question 2c. Would you commit to reviewing TSA's behavior detection 
program to ensure it is scientifically valid and does not open the door 
to racial profiling?
    Answer. TSA has a zero tolerance policy regarding unlawful 
profiling, and I will continue to uphold that policy. This policy has 
been reinforced through training and policy directives. Additionally, 
every TSO takes a no-profiling pledge, and is trained and expected to 
report allegations of profiling to local management or TSA's Office of 
Civil Rights and Liberties, Ombudsman, and Traveler Engagement, which 
is responsible for responding to civil rights complaints.
    To TSA's knowledge there is no existing scientific body of work 
that provides insights or guidance for U.S. agencies currently 
utilizing behavior detection capability. TSA conducted extensive 
literature reviews and found that scientific empirical research was 
lacking in terms of behavioral indicators used for identifying 
individuals with the intent to cause harm in an aviation environment. 
Because of these limitations, TSA decided to look outside of 
traditional research methods to locate sources relevant to the use of 
behaviors for identifying individuals with mal-intent. This led to the 
review of suicide bomber research reviews and actual incidents of 
bombings to determine what patterns of behaviors exist prior to 
detonation, which is of interest to the TSA. Eye-witness accounts of 
attacks, interviews with subject-matter experts, and reviews of the 
literature were found to have similarities with the behaviors used by 
TSA's behavior detection program. Overall, TSA is of the view that 
behavior detection is an important component of our layered security 
approach and critical to the agency's transportation security 
effectiveness.
    Terrorist organizations provide guidance to their operators on how 
to circumvent or defeat security measures. For example, in early 2015, 
the Islamic State of Iraq and the Levant (ISIS) published an open-
source manual designed to help traveling individuals avoid detection. 
Titled ``The Islamic State: What to Pack up, Who to contact, Where to 
go, stories,'' the manual provides specific guidance on how an 
adversary should avoid looking nervous. Specifically, the manual states 
that an individual must ``control shaking hands, rapid breathing, 
sweating, and avoid eye contact.'' The document also makes reference to 
having rehearsed responses to possible questions from security 
personnel. Law enforcement and security professionals, including TSOs 
are trained to detect such attempts to mask detection.
    TSA is not the only DHS component that utilizes behavior detection 
capabilities in conducting its mission. DHS is comprised of 22 
components, several of which leverage behavior detection. Similar to 
TSA, U.S. Customs and Border Protection officers use techniques to 
identify suspicious behavior indicators when engaging the traveling 
public. The National Protection and Programs Directorate's Office for 
Bombing Prevention provides training to law enforcement officers and 
other security professionals on counter surveillance techniques. The 
National Counterterrorism Center, DHS and the Federal Bureau of 
Investigation (FBI) provide joint information to first responders on 
behaviors that are reasonably indicative of criminal or terrorist 
activity. Additionally, DHS and the FBI issued Joint Homeland Security 
Assessments regarding suicide bomber tradecraft and suggested 
protective measures that reference behavior indicators. The training 
and information provided by these DHS and interagency partners inform 
and reinforce TSA's behavior detection capability development and 
training. Last, TSA has provided behavior detection training to 
Federal, State, international, and military entities teaching basic 
indicators for high-risk behavior and how to articulate what an officer 
sees.
    It is important to note that internationally, several countries 
leverage behavior detection as part of their aviation security model, 
including Israel, Switzerland, Ireland, and France. As an active member 
of the European Civil Aviation Conference, Behavior Detection Study 
Group, TSA has partnered with several countries to establish and share 
behavior detection practices. In April 2017, the International Civil 
Aviation Organization (ICAO) added the definition of behavior detection 
to ICAO Annex 17, recommending that states integrate behavior detection 
into their aviation security practices and procedures.
    Question 3a. While TSA is down from the attrition rates of over 20 
percent during the first 5-6 years of its existence, the TSA Office of 
Human Capital Annual Report for 2016 indicated annual attrition rates 
have increased from 10.7 percent in fiscal year 2012 to 14.3 percent in 
fiscal year 2016. TSA's attrition rates remain higher than that of all 
Federal employees.
    Has TSA made an analysis of the reasons behind high TSO attrition?
    Question 3b. TSOs are largely limited to the E pay band--one of the 
lowest pay bands at the agency. As of October 1, 2017, TSA eliminated a 
pay band jump for officers, who can no longer be promoted to the G pay 
band. What steps has TSA taken to improve TSO pay, including a career 
path to higher-paying positions?
    Answer. TSA monitors Transportation Security Officer (TSO) 
attrition rates very closely and continues to take steps to help 
mitigate attrition. TSO attrition rates vary significantly by location. 
Higher attrition rates are often found in locations with competitive 
job markets that offer higher than average wages and more standard work 
hours (e.g. no weekend/holiday hours). In our most challenging markets, 
TSA maintains a retention incentive program to assist in the 
recruitment and retention of quality personnel.
    As the TSO is an entry-level position, it will always be at risk of 
higher attrition rates due to promotional opportunities, both internal 
and external to TSA. As the U.S. economy has improved during the past 
few years, TSO attrition rates have slowly increased due to the growing 
availability of positions with more competitive salaries.
    To help reduce attrition of newly-hired employees due to job fit 
issues, TSA has implemented a number of measures to educate candidates 
to the greatest extent possible about the expectations and 
responsibilities of the TSO position before they advance through the 
hiring process and accept a job offer. These measures include providing 
prospective applicants with airport-specific information regarding 
hours of operation, commuter information, uniform and appearance 
standards of the TSO position, training and travel requirements, and 
available benefits. Additionally, TSA has created a 10-minute job 
preview video that portrays a day in the life of a TSO, so that 
potential applicants can make an informed decision as to whether they 
should apply for the position. The realistic job preview is accompanied 
by other short videos explaining the hiring process and the benefits of 
working as a TSO. These videos, which can be found at http://
www.realisticjobpreview.net/rjp/tsa_final.htm, help individuals 
determine whether the TSO position would be something they would like 
to pursue and this therefore helps to reduce short-term attrition.
    In June 2014, TSA raised the starting base salary 5 percent for 
newly-hired TSOs. At the same time, eligibility for promotion from the 
D band to the E band was reduced from 2 years down to 1 year. 
Additionally, the salary upon promotion was set to 5 percent above the 
base salary of the E band to encourage retention. After promotion to 
the E-band, the officers may opt to go down one of multiple career 
paths, including a technical track, a supervisory track, or a 
managerial track. Based on prior work experience and career 
aspirations, officers may apply at any time for TSA positions outside 
the TSO workforce.
    Based on feedback from the screening workforce and individual 
employees, TSA introduced a more transparent Nation-wide process for 
distributing annual pay adjustments and performance awards in 2016. For 
the past 2 years, TSA has provided payouts using an employee's annual 
performance rating for that year. More than 99 percent of the workforce 
received a pay adjustment and/or performance award in 2016 and 2017. 
Field response to this new process of recognizing the workforce has 
been well received.
    TSA is currently exploring further modifications to the TSO career 
path within TSA. The details of the new TSO Career Progression Program 
are currently under development.
    Question 4a. Opioids, both legal and illegal, come in various 
forms: Powder, tablets, sprays, patches, and blotter paper. Illicit 
fentanyl is often in powder form. In an occupational setting, it can be 
absorbed through the skin or inhaled. A minute amount--the size of a 
few granules of table salt--in the bloodstream can cause life-
threatening symptoms and even death. Naloxone (Narcan) is the only drug 
that can reverse the effects of opioids. Bag searches at TSA 
checkpoints and baggage screening expose Transportation Security 
Officer (TSOs) to the possibility of accidental exposure. Exposure to 
these potent and dangerous drugs is a significant threat that must be 
addressed to protect the health and safety of TSA employees. TSOs at 
Los Angeles International Airport have reported more than one fentanyl 
``scare''.
    What measures has DHS/TSA taken to protect employees who may have 
occupational exposure to opioids while performing their duties? Are 
these measures the same across DHS components?
    Question 4b. What is the DHS/TSA standard procedure for handling 
suspect opioids? Have employees been trained on it?
    Question 4c. Does DHS/TSA have Narcan immediately available at 
workstations where it may be needed in case of accidental exposure?
    Answer. Protecting the safety and health of the Transportation 
Security Administration (TSA) workforce is a top priority. A Department 
of Homeland Security (DHS) Chemical Analysis Report published April 
2017, recognized illicit fentanyl and carfentanil as emergency chemical 
threats. Since that time, TSA has been closely monitoring the 
Transportation Security Officer's (TSO) occupational exposure risk in 
collaboration with the DHS Office of Health Affairs, DHS components, 
and other Federal agency partners such as the Drug Enforcement 
Administration and the National Institute for Occupational Safety and 
Health (NIOSH).
    The TSA Office of the Chief Medical Officer (OCMO), in coordination 
with TSA's Occupational Safety, Health, and Environment Division 
(OSHE), changed the standard gloves issued to the workforce to comply 
with recommendations issued by NIOSH. These are the same gloves worn by 
U.S. Customs and Border Protection (CBP).
    OSHE and OCMO, requested a formal health hazard evaluation from 
NIOSH regarding TSOs, Transportation Security Specialists--Explosives, 
and Federal Air Marshals to evaluate employee occupational exposure 
risk and determine whether additional risk mitigation strategies are 
necessary. As part of their health hazard evaluation, NIOSH was also 
asked by TSA to comment on current screening procedures and make 
recommendations to minimize risks to the TSA workforce. TSA anticipates 
receiving further guidance from NIOSH in the second quarter of fiscal 
year 2018.
    TSA issued a National Shift Brief to the entire front-line 
workforce of approximately 50,000 employees, providing detailed 
information on fentanyl, including what it may look like and the forms 
it may be in, the signs and symptoms of exposure to the drug, and how 
it may be transmitted. This shift brief included a photograph of the 
drug in pure form, which resembles cocaine. It also provided guidance 
not to open packages containing unknown substances. If an officer finds 
a powder that could be fentanyl, a fentanyl analog, or anything 
otherwise suspicious, the officer should not open the container or 
conduct additional screening of the powder. The officer should notify 
Law Enforcement. For any suspected exposure, employees are instructed 
to call 9-1-1 or designated emergency medical services.
    OCMO and OSHE are in regular contact with their colleagues at the 
DHS Office of Health Affairs, CBP, and U.S. Coast Guard. In September 
2017, OCMO and OSHE representatives attended a 2-day conference on 
fentanyl organized by the Office of Health Affairs.
    TSA is also researching the implementation of detection equipment 
that would find fentanyl analogs without having to open containers. 
OSHE and OCMO have made recommendations to change screening procedures 
to minimize the handling of powders. Additionally, Countering Weapons 
of Mass Destruction (CWMD)/OHA reports that DHS has conducted a pilot 
training for the canine workforce to better detect fentanyl analogs and 
will expand training in January 2018.
    OCMO and OSHE have recommended against purchasing naloxone at this 
time. TSA continues to discuss this recommendation with NIOSH Health 
Hazard Evaluations and OHA. While issuing naloxone by itself does not 
necessarily require personal protective equipment (PPE), administering 
naloxone in a checkpoint environment would require a respiratory 
protection program for the TSA employee administering the medication. 
For example, if a TSO is in respiratory distress after an exposure to 
fentanyl, another employee coming to rescue the Officer would also be 
affected by the fentanyl, unless the responding individual is 
qualified, trained, and equipped with the appropriate PPE to include 
respiratory protection. The Department of Labor (DOL) Occupational 
Safety and Health Administration (OSHA) respiratory regulation includes 
a requirement for annual training, medical screening, and annual fit 
testing. Implementation of a compliant naloxone program may involve the 
development of other occupational safety and health-related programs, 
such as the respiratory protection requirements noted above as well as 
cardiopulmonary resuscitation training. The NIOSH health hazard 
evaluation will help determine whether a naloxone program is an 
appropriate course of action for TSA, and identify the most appropriate 
protective measure for carrying out security screening procedures, 
based on our officers' occupational exposure risk for incidental 
exposure to fentanyl and fentanyl analogs.
    Again, most airports are currently covered by first responders 
(emergency medical services and fire departments) that are carrying 
naloxone and the appropriate respiratory protection.
    Question 5. We have heard countless reports of non-enrolled 
passengers receiving PreCheck, including many foreign nationals. Is TSA 
planning to end giving PreCheck status on the boarding passes of 
passengers who have not enrolled in a DHS Trusted Traveler program or 
who are not part of a low-risk population specifically approved by the 
TSA administrator?
    Answer. Only TSA grants TSA PreCheck status. TSA conducts risk-
based assessments of everyone traveling on a TSA PreCheck 
participating airline. Through this risk-based assessment, TSA may 
decide that some travelers that are not enrolled are eligible for TSA 
PreCheck on their flight for that particular day. This is a flight-by-
flight assessment, and is unpredictable to travelers. TSA has 
implemented a schedule to reduce the number of non-enrolled travelers 
who become eligible for TSA PreCheck through our risk-based 
assessment, over a time line to best manage operational impact.
    Question 6a. Last year, TSA rescinded a Request for Proposals for 
expanding TSA PreCheck enrollment opportunities, citing cybersecurity 
concerns.
    What is the status of developing a new request?
    Answer. TSA is finalizing solicitation requirements to select an 
enrollment service provider for multiple TSA security vetting programs 
including the TSA PreCheck Application Program. TSA is planning to 
award the new contract in fiscal year 2018.
    Question 6b. Are you committed to searching for creative ways to 
increase enrollment in TSA PreCheck?
    Answer. TSA is working closely with industry to ensure solicitation 
requirements encourage innovative enrollment solutions that reduce 
burden on applicants, while ensuring data security and privacy. TSA is 
also working internally to institute more flexible enrollment options 
and ease of reenrollments. TSA will continue to engage with private-
sector partners and identify new partners and opportunities to market 
TSA PreCheck. This includes collaborating with airlines, airports, 
travel management companies, hotels, credit card companies, as well as 
aviation and travel industry associations. Previous collaboration has 
led to the use of airline inflight media to promote TSA PreCheck, as 
well as airport monitors to remind travelers about the benefits of 
enrolling in the program. In addition, travel management firms, 
actively promote TSA PreCheck to their customers through newsletters, 
web pages, and in-person client meetings. Some hotels and airlines now 
offer their loyalty program members an opportunity to use accrued 
loyalty points, and or miles, to cover the cost of the TSA PreCheck 
application fee. Many credit card companies offer new customers the 
opportunity to receive a fee credit for the cost of the application fee 
as well. These initiatives, among others are key to reaching travelers 
and enabling TSA to market the benefits of TSA PreCheck, and encourage 
enrollment in the program. TSA is also coordinating with U.S. Customs 
and Border Protection to identify collaboration opportunities that 
would increase security effectiveness, operational efficiencies, and 
enrollment growth between the TSA PreCheck and Global Entry programs. 
Individuals who enroll in CBP's Global Entry program are also deemed 
eligible through their Global Entry enrollment to access TSA PreCheck 
lanes when departing on flights from U.S. airports, thereby helping to 
strengthen aviation security effectiveness. Marketing initiatives 
leading to enrollment growth have included the development of materials 
to co-promote the benefits of enrollment in Global Entry and TSA 
PreCheck. These initiatives have included the Trusted Traveler 
Comparison Tool located on the Trusted Traveler Program webpage on 
dhs.gov. In addition, CBP and TSA co-promote the DHS Trusted Traveler 
programs via travel industry travel trade engagement, and development 
of co-branded promotional material assets for use by Government and 
private industry.
    In addition, TSA's Innovation Task Force (ITF) has a vehicle for 
soliciting ideas from the greater industry base on how TSA can achieve 
more, including increasing TSA PreCheck enrollment. ITF has developed 
and distributed two Broad Agency Announcements (Summer 2016 and Summer 
2017) and had almost 200 submissions over these 2 years. ITF also has 
pioneering outreach efforts to engage industry creatively through its 
industry exchange approach, including a presence at industry events, 
collaborative workshops with key stakeholders, and one-on-one market 
research discussions. Through reaching out to those who can assist TSA 
in creative ways to increase enrollment in TSA PreCheck and providing 
solicitation vehicles to get those ideas into TSA, we hope to make 
significant headway in these efforts.
    Question 7a. TSA has recently expanded its international operations 
in light of recent Security Directives and Emergency Amendments, 
conducting multiple assessments and inspections at last-point-of-
departure airports to ensure compliance with these measures.
    Does TSA have the resources it needs to ensure on-going compliance 
with security measures internationally?
    Question 7b. Will you consider requesting additional resources to 
increase TSA's full-time international presence?
    Answer. The Transportation Security Administration (TSA) will work 
with existing resources to implement the requirements of the recent 
Security Directive and Emergency Amendment to raise the global aviation 
security baseline. TSA continually evaluates its capabilities and 
requirements against an evolving threat landscape and any future 
resource requests will be submitted via the appropriations process.
      Questions From Hon. Val Butler Demings for David P. Pekoske
    Question 1. In preparing for the President's proposed elimination 
of Federal funding for TSA's Law Enforcement Officer (LEO) 
Reimbursement Program, and the proposed elimination of TSA staffing at 
airport exit lanes, what is TSA doing to work with airports and law 
enforcement agencies to ensure that law enforcement presence at 
airports and law enforcement support at passenger screening checkpoints 
is not diminished?
    Answer. Over the years, TSA has worked with, and will continue to 
work with, State and local law enforcement to develop capacity and 
relationships. Today, State and local law enforcement partners are 
better equipped than they have ever been before to meet emergent 
threats.
    All airports are required to have an Airport Security Program 
approved by TSA, developed in concert with the local airport authority, 
and once completed, subject to TSA inspection for airport operator 
compliance. As a result of that process, TSA works, and will continue 
to work, with the airport to ensure that law enforcement personnel are 
available and committed to respond to a security incident within the 
required period of time.
    Question 2. Section 44903(n)(1) of Title 49, U.S. Code, requires 
that the DHS Secretary ``ensure that the Transportation Security 
Administration is responsible for monitoring passenger exit points from 
the sterile area of [certain] airports.'' How would TSA continue to 
meet this statutory requirement without transportation security officer 
(TSO) exit lane staffing?
    Answer. For the subset of airports covered by the Bipartisan Budget 
Act, TSA will remain in compliance with the requirement until it is 
repealed by staffing the exit lanes with its existing checkpoint 
resources. These airports include those that TSA staffed as of December 
1, 2013, unless the airport has assumed responsibility in the 
intervening period of time. For those locations where the airports have 
already assumed responsibility for staffing the exit lanes, per TSA 
regulations, airports must include in their Airport Security Programs a 
description of sterile areas and the measures used to control access. 
If the airport operator maintains exit lane access control, they must 
prevent and detect unauthorized access, as well as prevent the 
introduction or carriage of an unauthorized weapon, explosive, or 
incendiary into the sterile area.
    Question 3. Do you anticipate that the President's fiscal year 2019 
budget will propose to eliminate the Law Enforcement Officer (LEO) 
Reimbursement Program?
    Answer. Development of the fiscal year budget request is still 
underway, and details on the upcoming proposal will be available when 
it is released. TSA will be pleased to respond to inquiries on the 
specifics of the request at that time.
    Question 4. Do you anticipate that the President's fiscal year 
budget will propose an elimination of transportation security officer 
(TSO) exit lane staffing?
    Answer. Development of the fiscal year budget request is still 
underway, and details on the upcoming proposal will be available when 
it is released. TSA will be pleased to respond to inquiries on the 
specifics of the request at that time.
    Question 5. What methodology did TSA staff use to justify the 
elimination of the LEO Reimbursement Program?
    Answer. Along with the Transportation Security Administration 
(TSA), airport operators and their State and local law enforcement 
partners play a critical role in maintaining security at airports 
across the country. The Department of Homeland Security (DHS) 
understands a program like the Law Enforcement Officer Reimbursement 
Program helps to support security by encouraging State, local, and 
Federal partnerships and by promoting cooperation, collaboration, and 
solidarity toward these efforts.
    In formulating the fiscal year budget request, the TSA focused on 
preserving front-line security capability in order to protect the 
traveling public within available resources. As part of the risk-based 
prioritization for resources, those areas where State and local law 
enforcement already operate or have the capability to step forward to 
support transportation security were ranked lower for Federal funding 
based on risk mitigation. This allowed limited resources to be applied 
to those areas solely under the jurisdiction of DHS.
    All airports are required to have an approved Airport Security 
Program (ASP), which is subject to TSA approval and inspection for 
airport operator compliance. One aspect of the ASP is that each airport 
must ensure that law enforcement personnel are available and committed 
to respond to a security incident within a set period of time. The Law 
Enforcement Officer Reimbursement Program supports activities beyond 
this requirement.
    Question 6. What methodology did TSA use to justify eliminating the 
exit lane staffing by TSOs?
    Answer. Two-thirds of commercial service airports already staff 
exit lanes as part of their access control responsibilities using their 
own staffing or a technological solution. Aside from the Bipartisan 
Budget Act, which requires TSA to staff sterile area exit lanes at 
airports where the agency was providing monitoring services on December 
1, 2013, access control is the responsibility of the airport and TSA 
inspects to ensure that responsibility is being met. Consequently, the 
TSA proposal is consistent with how most airports manage their 
responsibilities and allows TSA to devote its trained Transportation 
Security Officers to security screening duties.
    Question 7. Would airports across the Nation be less safe without 
the LEO Reimbursement Program and exit lane staffing?
    Answer. Airport operators are responsible for complying with 
security requirements outlined in their Airport Security Programs, 
which includes a law enforcement presence and capability that is 
adequate to ensure the safety of passengers.

                                 <all>
</pre></body></html>
